<html>
<title> - THE FISCAL YEAR 2010 BUDGET FOR THE FEDERAL EMERGENCY MANAGEMENT AGENCY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
THE FISCAL YEAR 2010 BUDGET FOR THE FEDERAL EMERGENCY MANAGEMENT AGENCY 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2009

                               __________

                           Serial No. 111-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

55-058 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon -           MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON-LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                      Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             PETE OLSON, Texas
LAURA RICHARDSON, California         ANH ``JOSEPH'' CAO, Louisiana
BILL PASCRELL, JR., New Jersey       MICHAEL T. McCAUL, Texas
EMMANUEL CLEAVER, Missouri           PETER T. KING, New York (ex 
DINA TITUS, Nevada                   officio)
VACANCY
BENNIE G. THOMPSON, Mississippi, 
(ex officio)

               Veronique Pluviose-Fenton, Staff Director

                      Stephen Vina, Staff Director

                         Daniel Wilkins, Clerk

               Amanda Halpern, Minority Subcommittee Lead

                                  (ii)






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS


The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3
The Honorable Anh ``Joseph'' Cao, a Representative in Congress 
  from the State of Louisiana....................................    25
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas........................................     2
The Honorable Pete Olson, a Representative in Congress from the 
  State of Texas.................................................    22
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    27
The Honorable Laura Richardson, a Representative in Congress from 
  the State of California........................................    24
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada................................................    29

                                Witness

The Honorable W. Craig Fugate, Admninistrator, Federal Emergency 
  Management Agency, U.S. Department of the Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                             For the Record

Letters submitted by Hon. Bennie G. Thompson, Chairman, Committee 
  on Homeland Security...........................................    20

                                Appendix

Questions and Responses:
  Responses from the Honorable W. Graig Fugate, Administrator, 
    FEMA.........................................................    37


                    THE FISCAL YEAR 2010 BUDGET OR 
                THE FEDERAL EMERGENCY MANAGEMENT AGENCY

                              ----------                              


                         Tuesday, June 9, 2009

             U.S. House of Representatives,
         Subcommittee on Emergency Communications, 
                        Preparedness, and Response,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Richardson, 
Pascrell, Titus, Olson, Cao, and McCaul.
    Mr. Cuellar. [Presiding.] The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order. 
The subcommittee is meeting today to receive testimony 
regarding the fiscal year 2010 budget for the Federal Emergency 
Management Agency.
    Again, good morning to the members and to the witnesses. On 
behalf of the members of the subcommittee, let me welcome our 
sole witness for today, the Honorable Graig Fugate, the 
administrator of the Federal Emergency Management Agency, FEMA, 
at the department of homeland.
    I believe you come from Florida, and we were talking about 
your state and local experience. And we appreciate that state 
and local experience.
    At the outset, I would like to express our gratitude for 
your participation in today's hearing, especially given the 
commencement of the 2009 hurricane season.
    Mr. Fugate, the subcommittee is impressed by your years of 
homeland security experience, both as a first responder and an 
emergency manager there in the state of Florida. We look 
forward in working with you as you lead FEMA's efforts to 
improve the federal emergency response, recovery and 
preparedness efforts across the nation.
    In the years since Hurricane Katrina crashed the shores of 
the Gulf Coast, FEMA has made significant progress, especially 
in the preparation for and response to Hurricanes Gustav and 
Ike, as well as its response to the severe storms and tornadoes 
in the Midwest last year, in 2008, the Midwest.
    Yet there is definitely room for FEMA to improve. Mr. 
Fugate, you are certainly being put to task, and your 
leadership is definitely needed in the agency.
    Today's hearing will be an opportunity to discuss President 
Obama's fiscal year 2010 budget request submitted to Congress 
on May 7, 2009. Specifically, the subcommittee wants to discuss 
the $7.2 billion proposed for FEMA, as well as the president's 
priorities in the budget.
    I should note that this subcommittee is very supportive of 
the president's budget request for the fiscal year 2010 
funding. We applaud the department for developing a 
comprehensive budget proposal to support FEMA's--to fulfill its 
critical mission to prepare, protect, respond and mitigate 
against major disasters or emergency.
    Although the president's budget provided an increase of 
$197 million above the fiscal year 2009 enacted budget, there 
are a few programmatic changes within FEMA that I look forward 
to discussing in greater details in today's hearing.
    In particular, the subcommittee is somewhat dismayed to 
learn that the proposed budget of $170 million--a 70 percent 
decrease--for the fire grant program. The committee is 
concerned that proposed funding is inadequate in addressing the 
equipment, training, and other resource needed for firefighters 
to carry out their critical life-saving missions.
    Another area of concern that involves first responders is 
the leveling of grant funds for the inter-ability emergency 
communications grants program, which is 85 percent short of the 
authorized level of $400 million in the 9/11 Commission Act 
that this committee worked very hard to develop.
    I will simply state that we must ensure that our first 
responders--the nation's first line of defense--are adequately 
equipped to protect, equip--to address any of the huge 
incidents that might hit us at any time.
    As the chairman of this subcommittee, it has also become 
clear to me that a prepared citizenry is the cornerstone of a 
resilient nation. While the storm winds may change direction 
and the level of threats to our society may vary, one thing 
remains constant, and that is the spirit of the American people 
to withstand any adversity that they may face.
    This is why I will work to ensure that the Department of 
Homeland Security, in particular FEMA, has the appropriate 
resources and authorities to strengthen their partnership with 
individuals, as well as the states, localities, and tribal 
governments.
    In closing, Mr. Fugate, I look forward to your testimony 
and hearing how the budget for FEMA will pull together the 
talents of our diverse nation to make clear that our government 
can provide the American people the security, the 
accountability, and, most importantly, the freedom from fear.
    The chair now recognizes Mr. McCaul, who is taking the 
place of our ranking member, and he will make an opening 
statement.
    Mr. McCaul. Well, good morning. And thank you, Chairman 
Cuellar, for holding this hearing today.
    I have been asked to sub in for Ranking Member Rogers, and 
I just got my prepared statement, so I will be brief and to the 
point.
    But I do want to welcome our witness and thank him for 
taking the time from his important schedule to be with us here 
today.
    And let me say, as a supporter of keeping FEMA within the 
department, I am pleased that the president agrees with us on 
this issue. FEMA has made great strides since Katrina and must 
stay integrated within the Department of Homeland Security.
    This hearing is being held to look at the president's 
budget request for FEMA and to address whether the agency has 
the resources and support that it needs. The fiscal year 2010 
budget request for FEMA shows a continued effort to strengthen 
preparedness and response programs and to continue to make the 
agency more effective.
    The budget request for many key state and local homeland 
security programs is similar to or higher than last year's 
enacted level of funding. However, I have serious concerns 
about the administration's request to cut several programs, 
some of which were outlined by the chairman, such as the 
Assistance to Firefighters Grant, cutting that by 70 percent.
    I think, Mr. Fugate, you are going to find that there is 
strong bipartisan support in the Congress to keep those grants 
in this budget. This vital program cannot afford to be 
undermined by a lack of funding in 2010, and it is important to 
our first responders.
    You know, we all remain mindful of the important work FEMA 
does, and I look forward to working with you to ensure that 
FEMA moves forward in an efficient and effective manner.
    I will say that my questions--we passed out of this 
committee last Congress a FEMA reform bill in response to the 
waste, fraud and abuse we saw out of Katrina. I am going to be 
interested in your comments on how those reforms were working 
and how FEMA is responding in terms of comparing its response 
to Katrina to the response to Hurricane Ike, that we more 
recently saw in our home state of Texas.
    So with that, I yield back. And I thank the witness for 
being here today.
    Mr. Cuellar. Thank you, Mr. McCaul.
    The chair now recognizes the chairman of the Committee of 
Homeland Security, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Welcome, Mr. Fugate. We have had a conversation, but this 
is our first opportunity to actually see you in person.
    I think no other agency is as well known as the agency you 
direct. My own experience with Katrina was not good from a 
response standpoint in my state. There have been a lot of 
things with Hurricane Ike and Gustav since that time. My 
challenge to you, given your extensive experience in this area, 
is to help us get it right.
    Our country looks to FEMA from a point of last resort, in 
terms of help. When we call the cavalry, the cavalry in this 
respect is FEMA. I want you to look at the housing mission of 
FEMA. I will talk a little bit about it later in my questions.
    We are still over 3 years after Katrina, still have people 
in motels. That is clearly the most expensive housing effort 
probably known to this government. We can do better, perhaps 
bringing the private sector in, asking them to help come up as 
an approach.
    Apart from that, there are some efficiencies in working 
with the private sector to help respond to disasters that we 
need to enhance. There is clearly some training at the local 
level that continues to be needed.
    We have had several field visits to impacted areas, and 
people have told us that part of the reimbursement process for 
FEMA continues to be problematic. In areas of my state, I 
continue to be told that the misinformation or incorrect 
information continues to ba a problem because people from FEMA 
at the local change from time to time.
    One person will tell a community, ``You do it this way.'' 
The next person comes and says, ``No, you don't do it. You do 
it this way.'' And the community is held in limbo. And in many 
instances, because of the public assistance reimbursement 
delays, the communities can't go forward because the 
reimbursement is held up.
    The other issue--and I am sure Mr. Cao will speak to this--
is when there is a discrepancy or dispute involved, we need to 
continue to work on streamlining how we resolve disputes 
relative to public assistance reimbursements.
    Lastly, there is an issue of tiering of contracts. In other 
words, if the prime contractor subs, those two individuals have 
standing in a dispute, but anybody below that sub on down has 
absolutely no standing in the reimbursement process. So they 
can write FEMA, they can write their congressperson, and there 
is nothing statutorily that can be done.
    Well, in most instances, those were the little people who 
were trying to help, might have one tractor, one dump truck, 
doing really the physical work, but they don't have standing in 
the dispute. We need to fix that.
    And we will have to let--work with you on resolving that. 
And I look forward to the testimony, Mr. Chair.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    At this time, I would like to welcome the Honorable Graig 
Fugate as the sole witness for today's witness. Mr. Fugate has 
more than 20 years' experience in emergency services in 
Florida, which, as we know, is a hurricane-prone state.
    Before being confirmed by the Senate as the administrator 
at FEMA on May 12, 2009, he served as the volunteer 
firefighter, paramedic, lieutenant with a county fire rescue 
division, and spent 10 years as the emergency manager for 
Alachua County in Florida.
    He most recently served as the director of the Florida's 
Division of Emergency Management, an appointment made by 
Governor Bush in October 2001.
    Administrator Fugate, we are pleased to have you present 
and greatly appreciate the testimony today. And without 
objection, the witness's full statements will be inserted in 
the record. I now ask Mr. Fugate to summarize his statement for 
5 minutes.

   STATEMENT OF HON. W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you.
    This is my first opportunity to present a budget and my 
first opportunity to provide testimony to the House. So I 
appreciate the opportunity, Mr. Chairman. And as we go through 
this, I am listening to the questions.
    And, first off, let me say that, having been a customer of 
these programs, I understand many of the challenges. I look 
forward, Mr. Chairman, to working with you and with the rest of 
the members and, Chairman Thompson, with the overall committee 
on how we move forward and build a stronger team.
    But today, my job is to present to you our budget request 
for FEMA, the president's budget. As you say, it is $7.4 
billion in that discretionary budget authority. This is an 
increase of $188 million above last year's enacted levels.
    Additional funding will strengthen our ability to respond 
to disasters, but we also have to continue to build, strengthen 
and support our national response team. Those emergency 
responders include our state, tribal and local governments, but 
also it involves more than that.
    One of the things that I recognized a long time ago was 
that this team has to move beyond just what government can do 
and look at our citizens as a resource and not a liability, so 
preparedness of working with our citizens and building that 
part--that team, as well as the private sector.
    In Florida, I learned a simple question to ask our private-
sector partners was not what they can do for us, but what we 
could do to get them open, and that working as a team so we 
weren't competing with each other.
    But we have to ensure that our frontline responders--and 
those are the local responders--are equipped and trained and 
prepared for the threats we face, both natural hazard, manmade, 
but also threats of terrorism. We are in a situation that we, 
again, want to operate from a standpoint of resiliency and 
capability and capacity as we deal with these threats.
    We have, you know, a detailed statement, but just to 
summarize, again, we request an increase in our operation, 
management, administration account. That is what we do to 
operate FEMA. We are still implementing many of the 
recommendations of the Post-Katrina Emergency Management Reform 
Act as we continue to build that out.
    We also are looking at--one of our programs we are doing 
internally to help measure where states are and where we need 
to go as far as our capabilities and our gap analysis. So we 
identified that as a very specific point in our budget and 
asked for that to be recognized as a specific funding request.
    Also, it includes an increase in our state and local 
programs. And, again, one of the areas we did fund more 
emphasis in this budget request was in the SAFER program, 
looking at staffing issues for fire departments.
    I recognize there are still other needs out there, but one 
of the areas that we did come forward with this recommendation 
was increasing the SAFER grants, looking at more staffing. That 
is something we are hearing a lot from departments right now, 
given the financial challenges they are facing.
    As we, you know, get ready for the hurricane season, I kind 
of--I almost feel like I am at a disadvantage, because I come 
from Florida, and it is a hurricane-prone state. That tends to 
be what people want to talk about.
    I always want to talk about the next disaster, and I don't 
know when that is going to occur. And I think that is part of 
our challenge is. Hurricanes, at least we--they don't sneak up 
on us. We can see them. They are something we can anticipate, 
prepare for. They are seasonal.
    But a lot of other disasters, such as earthquakes, don't 
have seasons. And we have a lot of disasters in the natural 
world that occur outside of this year--out of the hurricane 
season, but we also have a lot of other types of threats.
    So it is this constant process of preparing ourselves for 
the next disaster while we continue to rebuild from the 
challenges that we saw in the devastating hurricane seasons of 
2004 and then last year's hurricanes, as we have to stay 
focused on that.
    We have looked at things such as our national disaster 
housing strategy. I know there are challenges here. One of the 
concerns I have is that we ought to at times try to define our 
capabilities, our response to a disaster by what we can do 
instead of looking at what the challenges are. And I think that 
will help us clearly articulate where we need to go.
    We continue to look at mitigation against all hazards. We 
have the National Flood Insurance Program. We have the pre-
disaster mitigation program, which we have asked for some 
additional fundings there.
    And I, again--in conclusion, Mr. Chairman, we have 
presented a budget based upon what we were looking at and going 
into this next fiscal year. We have had to make choices that 
allocated funds based upon some of the decisions we were 
looking at within our budget. And this is our presentation to 
you to begin the consideration of working towards a budget.
    And, again, we solicit your questions, your input, and your 
guidance on how to move forward as a team and a partnership so 
we serve our American citizens.
    [The statement of Mr. Fugate follows:]

              Prepared Statement of Hon. W. Graige Fugate

INTRODUCTION
    Mr. Chairman, Ranking Member King and Distinguished Members of the 
Committee; it is a privilege to appear before you today on behalf of 
the Department of Homeland Security (DHS) and the Federal Emergency 
Management Agency (FEMA) to discuss the Agency, its accomplishments, 
and the fiscal year 2010 Budget Request. We appreciate your interest in 
and commitment to working together as a Nation to build, sustain, and 
improve our capability to prepare for, protect against, respond to, 
recover from, and mitigate against all hazards.
    While new to their ranks, I am by no means unfamiliar with FEMA, 
having planned and responded side-by-side with the Agency over many 
years and across multiple disasters. As a longtime customer of FEMA 
support, I believe I have a thorough understanding of the Agency's 
strengths and weaknesses, and I am committed to ensuring that FEMA is 
optimally prepared to quickly and effectively meet the needs of the 
American people in times of disaster. With the help of FEMA's skilled 
and dedicated staff, our DHS and federal colleagues, key partnerships 
with state, local and tribal governments as well as the private sector 
and voluntary agencies, and the support and oversight of Congress, I am 
confident we will meet that challenge.
    Already during this calendar year, FEMA has worked in close 
coordination with state and local authorities to respond to severe 
storms in Arkansas, Kentucky, Missouri, and several other States. We 
have supported the State and local response to record flooding in North 
Dakota and Minnesota. In addition, we have worked hard to accelerate 
and improve recovery efforts in the Gulf Coast region. While we have 
made substantial progress, and have a number of key initiatives 
underway, much work remains. And always, we must be ready to 
immediately and expertly respond to the next disaster, regardless of 
its origin or severity.
    The fiscal year 2010 President's Budget request reflects continued 
commitment to the actions required by the Post-Katrina Emergency 
Management Reform Act (PKEMRA), which established new leadership 
positions, brought additional functions into FEMA, and led to the 
creation of FEMA's National Advisory Council. Since the Act's passage, 
the Agency has significantly increased operational capacity to 
coordinate federal support to our state and local partners in meeting 
the needs of disaster survivors. Throughout fiscal year 2010, the 
Agency will continue this effort, as well as work to strengthen our 
emergency preparedness, response, recovery, and mitigation capabilities 
and further facilitate a robust coordinated response to all hazards.
    The Agency's fiscal year 2010 budget request reflects $7.394 
billion in net discretionary budget authority, which is an increase of 
$188 million above the fiscal year 2009 enacted level. This strengthens 
the Agency's ability to fund projected disaster assistance 
requirements, provide funding to support state, tribal, and local 
emergency management functions, and enhance internal staffing and 
systems that support FEMA's emergency management mission.
    I will now explain exactly how FEMA will put this funding to good 
use.

PREVENTION, PREPAREDNESS, AND RESPONSE
    To strengthen prevention capabilities at the state and local 
levels, FEMA will work even more closely with our partners in other 
federal agencies, states, territories, tribal nations, local 
governments, first responders, voluntary organizations, business, 
industry, and individuals. Included among these will be key partners 
who, though often critical to an effective response at the local level, 
are often on the outside looking in during response planning: local 
charitable organizations and health care delivery organizations. We 
need to ensure that these critical grassroots organizations are 
effectively integrated into our response planning and strategies.
    Local fire, law enforcement, and emergency services personnel are 
always the first to respond to an incident, and usually the first to 
identify and commence preparation for an emerging event. We must 
continue to ensure that these organizations and personnel are properly 
and fully supported.
    To improve prevention capabilities, FEMA requests $45.588 million 
in fiscal year 2010 for the United States Fire Administration (USFA), 
which reflects an increase of $609,000 to cover pay inflation.
    The mission of the USFA is to provide National leadership to foster 
a solid foundation for local fire and emergency services for 
prevention, preparedness, and response.
    USFA prepares the Nation's fire responders through ongoing and, 
when necessary, expedited training focused on evaluating and minimizing 
community risk, improving protection to critical infrastructure, and 
improving preparedness to react to all hazards. USFA coordinates with 
other federal, state, tribal, and local emergency service agencies, the 
private sector, and with colleges, universities, and other DHS 
educational consortium participants. In fulfilling its mission, USFA 
utilizes the assets of the National Fire Academy (NFA), the National 
Emergency Training Center (NETC) Facilities and Support Services, the 
National Fire Data Center (NFDC), and USFA's National Fire Programs 
(NFP) Division, as well as cooperative agreements with State training 
agencies.
    NFA promotes the professional development of the fire and the 
emergency response community and its allied professionals. To 
supplement and support state, tribal and local fire service training 
programs, NFA delivers educational and training courses having a 
National focus, and which include both residential and on-line National 
Incident Management System training for first responders.
    FEMA will continue its efforts to expand the emergency management 
body of knowledge and strengthen emergency management education to 
improve the nation's incident management capability. We will use 
enhanced operational planning capacity to develop vertically and 
horizontally-integrated response plans compliant with the National 
Incident Management System and the National Response Framework. We will 
also expand our focus on catastrophic disaster planning using Federal 
plans that have a Regional- and National-focus. Additionally, these 
plans will be synchronized with existing State, Urban Area, and 
regional plans developed through the Homeland Security Grant Program to 
prepare for National-level exercises.
    FEMA's fiscal year 2010 budget request for State and Local programs 
is divided into three major categories, for an appropriation totaling 
$3.867B: the State and Regional Preparedness Program; the Metropolitan 
Statistical Area (MSA) Preparedness Program; and the Training, 
Measurement, and Exercise Program. A separate line item appropriation 
is also requested for Management and Administration (M&A) costs of the 
Grant Programs Directorate and National Preparedness Directorate within 
FEMA to administer these programs.
    Within the State and local program's appropriation, FEMA is 
requesting a total of $420 million for Staffing for Adequate Fire and 
Emergency Response (SAFER) grants, representing an increase of $210 
million. These grants help fire departments increase their number of 
frontline firefighters. The goal is for fire departments to increase 
their staffing and deployment capabilities and ultimately attain 24-
hour staffing, helping ensure that communities have round-the-clock 
emergency support for fire and fire-related hazards.
    Through this appropriation, FEMA will continue to fulfill its key 
role of preparing state and local governments to prevent, protect 
against, respond to, and recover from all-hazard events. The funding 
will provide for grants, training, exercises, and other support that 
will assist federal agencies, states, territories, and tribal and local 
jurisdictions more effectively prepare for all-hazard events.
    FEMA must aggressively lead an integrated approach that continues 
to strengthen the Nation's ability to authoritatively address all-
hazards. While State, local, and tribal preparedness and resilience is 
critical to the Nation's ability to recover from disasters and 
emergencies, our nation's citizens also play a vital role.
    We think of our citizens as a resource, not as a liability, in our 
planning. We must integrate and build capacity and capability at all 
levels of government and incorporate volunteer, faith, community-based 
and private sector organizations. We must continue to reinforce the 
critical and enduring need for personal preparedness and encourage 
individuals to prepare themselves for disasters. However, while the 
vast majority of Americans have the means to take effective family 
preparedness actions, we cannot forget that many of our citizens are 
not so fortunate. They may lack the financial resources to adequately 
prepare, or they may face physical challenges. These special needs 
Americans must not be an afterthought in our planning. We must 
proactively incorporate the needs of our special needs populations as a 
core element of our planning process to ensure we take care of our most 
vulnerable citizens.
    Secretary Napolitano has made clear her commitment to improving 
intergovernmental coordination. Almost immediately upon being 
confirmed, she issued an action directive on improving ties with state, 
tribal, and local governments. Accordingly, we are improving our ties 
with partners through a number of key initiatives. For example, we are 
encouraging a state-led housing task force to ensure that state, 
tribal, and local governments are empowered to take the lead in 
determining the best and most appropriate housing options to meet the 
needs of the residents in their respective states.
    Strong FEMA Regions are key to our ability to maintain and sustain 
robust partnerships with our stakeholders within the public and private 
sector that will help ensure the most efficient leveraging of national 
expertise, resources, and capabilities in future responses to all-
hazard events. FEMA will continue to improve the quality and 
consistency of coordination between headquarters and regional offices 
in all aspects of disaster preparedness and management, including 
disaster response. This will provide regions with an expanded and more 
empowered role in executing the broad National mission entrusted to 
FEMA, resulting in valuable situational awareness of operations to 
properly shape policy and planning. To maintain continued success in 
future all-hazard events and to better support states and locals, FEMA 
must continue to enhance the nation's ability to approach events in an 
integrated manner focusing on continued improvements by using skill 
sets residing throughout FEMA, its regions, our federal partners, and 
all our stakeholders.
    Working closely with our federal, state, tribal, local and private 
sector partners, FEMA is aggressively conducting and coordinating a 
large number of 2009 Hurricane Season preparedness efforts. Federal 
Coordinating Officers have been pre-designated for and are actively 
involved in training, assessments and exercises in each of the 18 
Atlantic and Gulf Coasts states, plus Puerto Rico and the Virgin 
Islands.
    Increasing public messaging on preparedness, evacuation and 
sheltering plans, and commodity distribution remains a priority. 
Government--even with federal, state, tribal, and local governments 
working perfectly in sync--cannot do it alone. All Americans need to be 
part of the preparedness and emergency management process. Our Citizens 
must understand and take responsibility for their own role in 
disasters. We must continue to develop a culture of increased 
preparedness in America, a culture in which every American takes 
personal responsibility for his or her own emergency preparedness.
    We have improved coordination and connectivity with interagency, 
military, and DHS partners through upgrades to our network of 
operations centers, including the National Response Coordination 
Center, the Regional Response Coordination Centers, and the FEMA 
Operations Center. We have expanded and refined Pre-Scripted Mission 
Assignments to facilitate disaster response support from other 
departments and agencies. Pre-Hurricane Katrina, FEMA had 28 Pre-
Scripted Mission Assignments; all of them within a single agency, the 
United States Army Corps of Engineers. Now, we have 236 Pre-Scripted 
Mission Assignments across 29 agencies.
    FEMA has also provided regional evacuation planning support to the 
Gulf Coast and East Coast states. The Agency continues to provide 
technical assistance to at-risk Gulf Coast states for hurricane 
evacuation and transportation planning. For example, FEMA recently 
convened a Gulf Coast Contra-Flow Conference to further examine 
evacuation planning and processes. FEMA partnered with the Department 
of Transportation, Federal Highway Administration, and 10 states in the 
southeast, specifically focusing on transportation, emergency 
management, public safety, and security requirements. We have also 
established multi-modal transportation contracts (air, rail, and bus) 
to provide assistance to states to support evacuation.
    Should FEMA be required to support our State and local partners 
with temporary housing support this hurricane season, we are prepared. 
We have contracted for new low-formaldehyde travel trailers that will 
meet FEMA and state standards for indoor air quality, which are 
superior to any available commercially. We are establishing a Temporary 
Manufactured Housing Unit Supply Contract, which will provide FEMA the 
ability to sustain disaster housing operations in the event of a 
catastrophic disaster. We are also evaluating Alternative Housing Units 
built for sustained testing and evaluation at FEMA's National Emergency 
Training Center in Emmitsburg, Maryland.
    FEMA's Emergency Support Function 6 Mass Care and Emergency 
Assistance Unit continues to work with the American Red Cross and other 
Voluntary Organizations to ensure that plans, resources and protocols 
to assist disaster survivors are developed and ready. We are developing 
a comprehensive National Shelter Tracking system to help states meet 
their needs as well as refining tools that support the reunification of 
families and missing children after disasters.
    FEMA also continues to work with its partners to enhance its 
capability to lead and implement Emergency Support Function 14--Long 
Term Community Recovery under the National Response Framework.
    The Nation's planning system took a significant leap forward with 
the development of the Comprehensive Preparedness Guide 101 for state, 
tribal, local planning and the Integrated Planning System for Federal 
planning. In the years ahead, we are focused on implementing and 
integrating these planning systems in a coordinated manner through the 
FEMA Regions, and on ensuring their effectiveness in the field. The 
Agency also is prioritizing the assessment of federal, state and local 
preparedness levels by developing and implementing a Comprehensive 
Assessment System that will use the Target Capabilities List to assess 
the Nation's performance through qualitative and quantitative metrics. 
In support of this effort, FEMA has developed a Cost to Capability 
initiative to manage performance across a diverse portfolio of 
preparedness grant programs. This will enable us to better demonstrate 
the effectiveness of preparedness grant programs in building state and 
local all-hazards capabilities outlined in the Target Capabilities 
List.
    Our Operations, Management, and Administration (OMA) account 
supports critical core operations for all FEMA organizations at both 
regional and headquarters levels. The fiscal year 2010 OMA budget 
request reflects the amounts required to sustain our recent 
improvements in operational response and internal capacity, as well as 
to support the Agency's efforts to complete implementation of the full 
range of PKEMRA requirements. These increases strengthen the Agency's 
ability to fund projected disaster assistance requirements, to provide 
adequate funding to support state, tribal, and local emergency 
management functions, and to enhance internal staffing and systems 
required to support FEMA's emergency management mission.
    To support preparedness, FEMA requests $852.2 million in fiscal 
year 2010 for OMA, which provides a net increase of $14.7 million from 
the fiscal year 2009 levels. This funding request reflects the transfer 
of preparedness and grant programs' funding to the State and Local 
Appropriation. Additional funds are requested for the following:
        <bullet> FEMA requests an additional $10 million for storage 
        tank management activities for repair, replacement, restoration 
        and remediation efforts. FEMA oversees an inventory of over 
        1,000 underground storage tanks, aboveground storage tanks, and 
        rolling stock, used primarily for the storage of petroleum and 
        petroleum-based products to support operations during a 
        disaster. Many of these aging and deteriorating tanks have been 
        inadequately maintained, and many are out of regulatory 
        compliance. In fiscal year 2009, FEMA established a Program 
        Management Office to more effectively manage the storage tank 
        program. FEMA has completed its operational storage tank 
        inventory and all remaining tanks are undergoing assessments to 
        determine their status and condition. Operational tanks have 
        been assessed and necessary repairs are being made, while non-
        operational tanks are currently being assessed to determine the 
        next appropriate course of action
        <bullet> FEMA also requests an additional $7.9 million for its 
        share of the fiscal year 2010 DHS data center development 
        funding, which will be used for the continuation of system and 
        application migration to the two DHS Enterprise Data Centers 
        for central DHS management in fiscal year 2010. This effort 
        includes discovery, migration planning, and scheduling 
        activities specifically related to systems/applications that 
        will transition to the DHS Data Centers in fiscal year 2010. It 
        also funds the purchase of new equipment for placement in the 
        DHS Data Centers, as well as the transition of disaster 
        recovery/backup/Continuity of Operations capability to DHS Data 
        Centers. This efforts will ensure that we can recover data as 
        expeditiously as possible.
        <bullet> To continue to meet the program goals for Disaster 
        Assistance, Mitigation, and Preparedness grants, the 
        Environmental Planning and Historic Preservation Office must 
        increase its capability, particularly at the Regional level, 
        for proactive outreach and planning, disaster readiness, and 
        project reviews. FEMA requests an additional $2.3 million for 
        increased staffing dedicated to Environmental Planning and 
        Historic Preservation, to ensure that FEMA's activities and 
        programs related to disaster response and recovery, hazard 
        mitigation, and emergency preparedness comply with Federal 
        environmental and historic preservations laws and Executive 
        Orders.
        <bullet> Our final OMA request is for an additional $3.0 
        million for the Gap Analysis Program to supplement the 
        continuation of our critical efforts to quantitatively and 
        qualitatively examine State capabilities and resource needs/
        gaps, and to strengthen the development of State emergency and 
        evacuation plans. This funding will enable the Gap Analysis 
        Program to be expanded beyond the initial focus on hurricane-
        prone regions/states to encompass all states.
    In the area of response, FEMA has strengthened its operational 
readiness with Incident Management Assistance Teams and stronger 
regional operations. FEMA has full-time, dedicated response teams 
standing by to ensure they can be on the ground working side-by-side 
with the State within hours of any disaster. We have also proved our 
logistics can deliver the necessary supplies and resources to a 
disaster site more effectively and quickly than in the past. Simply 
put: FEMA and the Nation are better prepared.
    We have worked to strengthen FEMA as an organization by making a 
greater and more sustained investment in our people, developing a 
capable and motivated workforce that will ensure mission success, and 
helping fortify a culture that rewards performance through personal 
stewardship, innovation, and accountability.
    In fiscal year 2010, FEMA will continue to improve operational 
effectiveness by enhancing its capability to provide transparent supply 
chain visibility and accountability of pre-positioned commodities. Pre-
event procurements such as use of Inter-Agency Agreements (IAA) will 
improve readiness and provide immediate recovery support to the 
impacted area. We will also conduct assessments of current logistics 
core competencies and implement industry best practices.
    FEMA has several other significant initiatives planned for fiscal 
year 2010 to ensure continuity of national operations. For example, as 
part of the Integrated Public Alert and Warning System implementation 
plan, the Agency will publish an Inventory Assessment Report of the 
public alert and warning system capabilities and resources. Moreover, 
FEMA will make major systems upgrades to replace legacy equipment and 
improve interoperability of the FEMA National Alert Radio System.
    In the past year, FEMA has been able to respond rapidly and 
effectively to emergencies across the country. In 2009, FEMA supported 
24 major disaster, five emergency, and 24 Fire Management Assistance 
Declarations. We are a more nimble and responsive agency.
RECOVERY
    Within the area of recovery, which remains the most challenging 
aspect of any disaster, FEMA is focused on providing assistance, both 
before and after events, in an easily accessible and coordinated manner 
through simple and effective delivery mechanisms, while also minimizing 
opportunities for waste, fraud, and abuse. We have expanded our 
capability to register those in need for aid and have mobile 
registration centers that can be quickly deployed to help those without 
access to phones or computers.
    In January 2009, FEMA released the National Disaster Housing 
Strategy. For the first time, the Nation has a document that organizes 
the many planning and operational elements and considerations of 
disaster housing within a single strategic framework. It is intended to 
provide a common set of principles that will allow all housing 
stakeholders, at every level of government, to more effectively employ 
available resources to meet the needs of disaster survivors. This 
Strategy defines and outlines the intersection and interaction of 
federal, state, tribal, and local roles, responsibilities, resources, 
and options. Further, and perhaps most importantly, this Strategy 
recognizes and reinforces the need for all parties to plan and 
operationally prepare to play a much greater role in the disaster 
housing continuum, including the need for states to take the lead role 
in defining appropriate disaster housing strategies.
    In April, we released the 2009 Disaster Housing Plan, which 
describes the specific actions that FEMA will take this year to support 
state, tribal, and local officials in meeting the housing needs of 
disaster survivors. As FEMA continues to build its disaster housing 
capabilities, we will continue to provide state, tribal and local 
governments with a clear expectation of the type of disaster housing 
support FEMA can provide.
    Secretary Napolitano is committed to partnering with the Department 
of Housing and Urban Development (HUD) to explore opportunities to more 
expansively engage in and collaboratively support the Federal disaster 
housing mission. We are working to better align our roles and 
responsibilities in support of our State and local partners, which will 
allow FEMA to focus on the immediate, emergency needs of disaster 
victims, such as sheltering and interim housing, with HUD taking the 
lead utilizing their unique expertise in, and resources that support, 
long-term housing. This alignment of responsibilities is reflected in 
the National Disaster Housing Strategy.
    FEMA continues to work with its Federal, State, and voluntary 
partners to build a robust system for evacuation, sheltering and 
housing, including our collaboration with the American Red Cross to 
implement the National Shelter System. The Agency has established a 
National Emergency Family Registry and Locator System and, working with 
the National Center for Missing Children, established a National 
Emergency Child Locator Center to help those that have been displaced 
find their loved ones. We have a new policy to help those with pets 
which identifies expenses States and local governments may be eligible 
for reimbursement for in conjunction with emergency pet evacuation and 
sheltering activities associated with the declaration of an emergency 
or major disaster declaration. We continue to strengthen and grow our 
ties and relationships with faith-based organizations that are, often, 
on the ground soon after a disaster, offering aid and assistance to 
those in need.
    FEMA will continue to ensure effective recovery and disaster 
assistance programs that balance the assistance needs and desires of 
the states, communities, and individuals with the Agency's need to 
serve as good stewards of taxpayers' funds. My goal is to ensure that 
FEMA's Stafford Act-authorized grants and technical assistance programs 
become a model of effectiveness and efficiency. FEMA will take a fresh 
look at its underlying authorities and pursue opportunities to improve 
administrative processes and policies to better match state, community, 
and individual needs while still safeguarding against duplications of 
payments and preventing waste, fraud, and abuse.
    A significant focus for fiscal year 2010 is the consolidation of 
the non-disaster grants management system and other DHS grants and 
financial assistance management systems into a single grants management 
system. This on-going effort will improve customer service, increase 
standardization, and streamline business processes and technologies, 
which will reduce overall grants management costs.
    To ensure FEMA remains prepared to effectively respond to a 
presidentially declared all-hazard event, we request total funding of 
$2 billion, including an increase of $600 million, for the Disaster 
Relief Fund (DRF). The DRF funds the federal response to Presidentially 
declared major disasters and emergencies, enables FEMA to plan and 
coordinate the federal response and reimburse agencies for their 
efforts through mission assignments, and otherwise enables the Federal 
government to prepare for, respond to, recover from, and mitigate the 
results of specific disasters and emergencies. The following grants are 
awarded from the DRF to mitigate or recover from the damage of a 
disaster: Individual Assistance; Public Assistance; and Hazard 
Mitigation. This request will allow replenishment of the DRF to funding 
levels consistent with the historical average for non-catastrophic 
disaster activity.
    In fiscal year 2010, FEMA also requests authority to transfer up to 
$50 million to the OMA appropriation for management and administration 
functions.
    The Emergency Food and Shelter Program provides grants to nonprofit 
and faith-based organizations at the local level through the National 
Board to supplement their programs for emergency food and shelter. 
Nearly 12,000 nonprofit and local government agencies in over 2,500 
cities and counties across the United States receive awards. Emergency 
Food and Shelter funds are used to supplement food, shelter, rent, 
mortgage, and utility assistance programs for people with non-disaster 
related emergencies.
    The FEMA fiscal year 2010 request for the Emergency Food and 
Shelter Program is $100 million. This request represents a decrease of 
$100 million from fiscal year 2009. However, the recently passed 
American Recovery and Reinvestment Act of 2009 provided an immediate 
appropriation to the Emergency Food and Shelter program of $100 million 
and those funds have just been distributed.

MITIGATION
    Mitigation is a key component of prevention, preparedness, and 
emergency management. FEMA must continue to enhance its mitigation 
programs to protect lives and prevent property loss from natural hazard 
events.
    In fiscal year 2010, FEMA will continue its transition to a 
multiyear mapping effort that requires a review of each flood hazards 
map every five years to update and refine the data. This revitalized 
effort will provide sound flood hazard data, align flood map updates 
with flood risk assessments to support stronger hazard mitigation 
planning, and enable broader flood risk communication crucial to a 
National reduction in flood risk.
    Flood Map Modernization will produce flood maps in a geographic 
information system format for a majority of those areas where there is 
recognized flood risk. This modernization effort incorporates the 
latest technology, providing flood hazard data in the most usable 
format, with advanced tools and techniques that will enable FEMA and 
our state and local partners to produce high-quality data while 
operating within cost and schedule constraints. FEMA's current approach 
for Risk MAP is to update maps using the most current information so 
they reflect physical changes that have occurred since the original 
mapping. FEMA also partners with state and local governments to help 
develop their capability for managing and maintaining flood hazard 
data.
    In support of these initiatives, FEMA requests $220.0 million in 
fiscal year 2010 for Flood Hazard Mapping and Risk Analysis Fund 
(formerly Flood Map Modernization Fund) this year for the continuation 
of flood map updating and modernization. This request represents no 
change from fiscal year 2009 levels.
    FEMA will also continue the National Flood Insurance Program (NFIP) 
systems modernization effort to build an information technology 
infrastructure. This will streamline the insurance process, provide 
faster and more accurate access to NFIP data and the capability to 
increase NFIP policy sales and improve responsiveness to customers' 
claims through the use of a centralized online claims module available 
via the Internet.
    The National Flood Insurance Fund, which was established by the 
National Flood Insurance Act of 1968 (42 U.S.C. 4001), is a premium 
revenue and fee-generated fund that supports the NFIP. The Act, as 
amended, authorizes the Federal Government to provide flood insurance 
on a National basis to owners of properties located in vulnerable 
areas. The National Flood Insurance Reform Act of 1994 (P.L.103-325) 
made flood insurance mandatory for all Federally-backed mortgages of 
properties located in the special flood hazard areas. Currently, the 
NFIP insures more than 5.6 million private commercial and residential 
policyholders totaling approximately $1.1 trillion.
    FEMA requests fee authority in the amount of $159.469 million for 
the fiscal year 2010 National Flood Insurance Fund discretionary. This 
is an increase of $2.9 million from the fiscal year 2009 levels. Flood 
insurance premiums collected are deposited into the National Flood 
Insurance Fund, which is also used to pay out claims as well as the 
operating and administrative costs associated with maintaining the 
program.
    In return for the availability of flood insurance, communities 
agree to adopt and enforce floodplain management measures to reduce 
losses from future flooding. Flood insurance may be sold or continued 
in force only in communities that enact and enforce appropriate 
floodplain management measures. Communities must participate in the 
program within one year of the time they are identified as flood-prone 
in order to be eligible for flood insurance and some forms of Federal 
financial assistance for acquisition or construction purposes. In 
addition, Federally-regulated lending institutions cannot provide loans 
in non-participating communities for properties within an identified 
special flood hazard area. Certain forms of disaster assistance also 
are restricted in these non-participating communities.
    FEMA implements three additional Hazard Mitigation Assistance 
programs; the Severe Repetitive Loss Mitigation Pilot Program, the 
Flood Mitigation Assistance grant program, and the Repetitive Flood 
Claims grant program, with the goal of reducing or eliminating claims 
under the NFIP. FEMA provides funds to assist States and communities 
implement measures that reduce or eliminate the long-term risk of flood 
damage to buildings, manufactured homes, and other structures insurable 
under the National Flood Insurance Program. The Severe Repetitive Loss 
Mitigation Pilot Program provides funding to reduce or eliminate the 
long-term risk of flood damage to severe repetitive loss residential 
structures insured under the NFIP. There are currently approximately 
7,000 properties meeting the legislative definition of Severe 
Repetitive Loss. The Repetitive Flood Claims grant program provides 
funding to reduce or eliminate the long-term risk of flood damage to 
structures insured under the NFIP that have had one or more claim 
payments for flood damages. The long-term goal of these programs is to 
reduce or eliminate claims under the NFIP through mitigation activities 
that are in the best interest of the National Flood Insurance Fund.
    Finally, FEMA requests total funding of $150 million, an increase 
of $60 million for the Pre-Disaster Mitigation (PDM) grant program. 
This program provides technical and financial assistance to state and 
local governments to help implement pre-disaster hazard mitigation 
measures designed to reduce injuries, loss of life, damage and 
destruction of property. Operating independently of the DRF (which 
provides post-disaster mitigation funding), the PDM program offers an 
annual funding source for eligible mitigation activities that is not 
dependent upon a declaration of disaster activity by the President. The 
funding will be used to implement a base-plus-risk allocation program 
that will assist states, territories, and tribes. Working with the 
States, FEMA will establish and maintain a portfolio of pre-qualified 
mitigation proposals that are consistent with state, tribal and local 
mitigation plans and priorities, and are deemed as technically-feasible 
to reduce losses from identified hazards in a cost-effective manner.
    The PDM program assists state, local and tribal governments in 
implementing cost-effective hazard mitigation activities that 
complement a comprehensive mitigation program. This program provides a 
funding resource for state and local governments seeking to initiate or 
complete plans and projects that ensure immediate risk reduction to the 
population, to property, and for at-risk structures, including critical 
facilities. Often, funding is the primary obstacle that states and 
local governments must overcome in order to be more proactive in the 
prevention or reduction of the damage caused by natural hazards.

CONCLUSION
    Mr. Chairman, we believe the President's fiscal year 2010 budget 
proposal represents a thoughtful, responsible approach that prioritizes 
those program areas in which FEMA is likely to have the greatest impact 
in reducing loss from disaster and providing the emergency assistance 
that will be necessary to alleviate suffering when disaster strikes.
    Over the past year, FEMA has enhanced its ability to lead and 
support the nation in a risk-based comprehensive emergency management 
system of prevention, preparedness, response, recovery, and mitigation. 
The Agency has been able to respond rapidly and effectively to every 
disaster we have been called upon to support.
    In the year ahead, we will work to ensure that FEMA continues to 
meet the needs of the American people in times of disaster. While the 
agency has already seen tremendous improvement over the last few years, 
I am confident that, with the help of our skilled and dedicated staff, 
and your support, we can make FEMA even better.
    This concludes my testimony today. I am prepared to answer any 
questions the Committee may have.

    Mr. Cuellar. I would like to remind each member that he or 
she will have 5 minutes to question the witness.
    I now recognize myself for questions.
    First of all, Mr. Fugate, thank you again for being here. 
Let me direct your attention to the Gap Analysis Program where 
you requested funds for $3 million to address that issue. As 
you know, this is one that looks at the strengths and the 
weaknesses of each state's emergency plans and evacuation plans 
that you all might have.
    Why is it important to identify these gaps between the 
emergency and the evacuation plans? And, is there an inventory 
that goes state-by-state that shows you where each state is and 
if there is any gaps between those two plans?
    Mr. Fugate. Mr. Chairman, we have done this process--and it 
originally started with hurricanes, but looking at all hazards. 
The purpose of this is to help identify at what level states 
would be requesting federal assistance so that we would have a 
better understanding of things we would plan for ahead of time, 
particularly with our federal family of agencies.
    We have gone back and we have continued to refine this, but 
I think this is important for two things, one is to understand 
what they have dealt us. And, quite honestly, Mr. Chairman, I 
wouldn't have picked the term ``gap.'' I would have used 
capabilities. And then, from the capabilities, we look at the 
event and we know what the additional resources are going to 
be.
    But what is important is, is to help demonstrate that, in 
the money that we have been extending to build capability and 
capacity in the nation, that we identify, one, what we have 
been able to accomplish, what the states and local governments 
have as that capability.
    And if we have an event such as an evacuation scenario or a 
housing mission scenario or some kind of debris mission, we 
understand what the local state governments are capable of, 
what they are going to be able to do, and anticipate what the 
federal support will need to be to address that challenge. And 
looking at that across a variety of hazards and trying to use 
as much as we can in realistic scenarios, such as previous 
events or modeling data, to help us understand that, as we 
continue to encourage states to increase that capability and 
capacity.
    That we also know when we would likely need to provide 
assistance in a coordinated manner so we can pre-script and 
have missions ready to go, versus waiting at the last minute, 
which, as we saw, was very inefficient and very costly when we 
didn't have a plan for how we were going to support a state.
    Mr. Cuellar. One of the items that GAO has reported 
relating to FEMA's monitoring of homeland security grant 
expenditures is that it does not provide a means to measure the 
achievement of desired program outcomes, whether it is customer 
service or whether you are measuring the performance--and I 
know the state of Florida--Texas has--I believe a lot of other 
states have a lot of those performance measures on it.
    And if the committee and the chairman would support such an 
aproach I am hopeful that on the reauthorization of FEMA, we 
add some language dealing with customer service and with the 
performance of certain parts.
    But in particular, I want to focus just on the grants 
itself. Given your perspective from the state level and 
concerning your new responsibilities as the FEMA administrator, 
how important is it to calculate a rate of national return on 
investment for a homeland security grant funding to states and 
locals?
    Mr. Fugate. Mr. Chairman, short answer is, looking at our 
current economic situation, we are going to have to justify and 
be able to show that what we are doing is actually adding 
value. Part of this comes back to--and I had an opportunity to 
meet with state homeland security advisers this morning--is, we 
have been building a lot of capability and capacity, but we do 
not yet have the way to articulate in a cost-benefit analysis 
what that costs to build, but, more importantly, what is it 
going to cost to maintain that?
    And have we addressed the threats and developed enough 
capacity to address not just the ones that we already have in 
place, but is there anything else we need to do?
    A part of this that I have found is, what are we building? 
How do we know it is built? And how do we maintain it? And 
those are very simplistic questions, but the magnitude of the 
challenge is, until we can start articulating in that manner, 
it is very difficult to show what progress we are making, how 
we defend and continue to support the maintenance of these 
issues, and where, as we get new intelligence or new threats, 
that we need to address where the capability shortfalls are.
    Mr. Cuellar. And later we will spend a lot more time on the 
grants, because we certainly want to make sure that we are as 
efficient and as effective and accountable on those grants, of 
course, measure the results. If we send dollars to a particular 
community, we want to know what is the impact on that, so we 
will spend a little bit more time.
    But let me talk to you about another performance measure. 
The 9/11 Act allows states to keep a 3 percent UASI and the 
SHSGP grants funds for the associated administrative costs. The 
states used to be able to keep 5 percent for that purpose, for 
administrative cost.
    There has been a recent push by states to return the 5 
percent. And I am a little biased. I would rather keep--rather 
have 3 percent than the 5 percent, because, you know, you keep 
that money in the administrative costs. I would rather get that 
money more directly, and I don't mean to speak for the 
committee.
    But just as a former state employee, give us your thoughts 
on this 5 percent, 3 percent. And, again, personally speaking, 
I would rather keep that at 3 percent than send it out there--
you know, I would rather send that directly out to the 
firefighters or whoever might get those dollars on that, but if 
you can give us your opinion.
    Mr. Fugate. Mr. Chairman, I would agree. The more money we 
spend on doing stuff and less on process is a good outcome. And 
initially, our approach in Florida was, we were able to--we had 
the luxury. We passed on all the money with no admin costs.
    But the reality of what we were getting hit on and I.G. 
reports both from the state and federal level was 
accountability and monitoring. We actually had to go out, as we 
issued those grants, to make sure what was intended in those 
grants was occurring.
    We were having to demonstrate that we were additionally 
monitoring not only that the single lot of that was provided to 
us, but also we had to physically go out and visit that. That 
creates an overhead on the states to be able to resolve and 
satisfy those I.G. findings so that we are accountable. That 
takes staff. That takes time. That is an overhead process.
    So I think it is a balancing act. Before I would 
automatically say more money, let's look at what their costs 
are and see what they are having to spend above and beyond what 
those management costs are and make sure that we are clear in 
what we are looking at, that if we can--again, if we can 
streamline the grant process, but can we streamline the 
monitoring process?
    We have accountability that we are achieving, that the U.S. 
taxpayer dollars are going for the intended purposes, but 
streamline that process, as well, so we can keep it within that 
3 percent. But I would ask that we actually get actual numbers 
to come back and look at, what are those costs above and beyond 
3 percent?
    Mr. Cuellar. Right, exactly. All right, well, it sounds 
good.
    What I would just ask you is, we will spend some time on 
this performance issue, because we want to make sure that we 
are sending that money directly as much as possible and getting 
the best bang.
    At this time, I would like to recognize Mr. McCaul for any 
questions that he might have.
    Mr. McCaul?
    Mr. McCaul. I thank the chairman.
    As I mentioned in my opening statement, we, out of this 
committee, have passed FEMA reform. After Katrina, we found 
that people were making applications out of prisons, that 
cemeteries were being used for addresses to receive payment 
assistance, on and on and on. And I am curious as to the 
progress we have made since and in terms of taking out the 
waste, fraud and abuse from the system.
    But let me--I also want to make a comparison between 
Katrina and Hurricane Ike. There appears to be a large 
disparity in the amount of payments.
    Now, granted, I think Katrina was a larger-scale-type 
hurricane. There were a lot of differences between the two 
hurricanes. But I just wanted to throw out a few figures.
    For instance, under housing assistance, there were 506,000 
applicants under Ike. And under Katrina, there were 939,000 
applicants. In Ike, only 17 percent of the applicants received 
assistance. And under Katrina, 74 percent received assistance. 
Now, that is a fairly wide disparity when you are talking about 
17 percent were actually granted versus 74 percent in Katrina.
    Other needs assistance, a total of 65,000 applicants were 
approved under Ike and about 265,000 under Katrina. The average 
payment, when you compare Katrina to Ike, Katrina was about 
$5,600. Ike was about $1,700. So there was about a three times 
variable there between assistance granted in Katrina and Ike.
    And then, finally, total assistance of the average payment 
per registrant under Ike came at a total of $722, versus 
Katrina, which came at a number of almost $5,000. So $5,000 
versus $722.
    There seems to be a big discrepancy. I have asked the GAO 
to look at these numbers, explain why this disparity. And I 
know there are probably--there are probably reasons for it and 
answers. But I have asked the GAO to do a study.
    And, Mr. Chairman, I intend to send a letter to you asking 
for a hearing on this issue so we can find out, number one, 
lessons learned from Katrina. Maybe we are doing--you know, 
these controls are in place and the taxpayer is saving money. 
Maybe there is a good story here.
    But I also would like to know, you know, being from Texas 
and having my constituents hit by Hurricane Ike, I would also 
like to get the answer to why such a big disparity.
    Mr. Fugate. Short answer is, I would have to look into it. 
Well, what I would recommend, if we are asking for this review, 
is, one of the things I would like to know, what I would ask 
is, given the payouts, what kind of damage were occurring per 
household? Were we seeing the household was destroyed or 
household damage and what that percentage was?
    The other thing is, is the bias in our controls now--
filtering out people that would otherwise be eligible--it is 
always the balancing act. The more accountability, more checks 
and balances, the more people that are outliers who don't fit 
the definition perfectly, but are eligible will fall out.
    And we saw this in our 2004 hurricane season. We had to 
devote tremendous staff time just to work with people so that 
the automatic systems, that we kicked them out, but they were 
still eligible, we would have to go back and work casework on 
each one of those to make sure.
    Our goal is, is that if it is a need, it is based upon the 
eligibility and it is warranted, that we should award that as 
effectively as possible. We should do everything we can to 
monitor and control fraud, but it is a balancing act.
    And so if--you know, to me, interesting to look at, what 
was the household damages percentage-wise? That would reflect 
payment. But also, are the controls we are putting in to 
control fraud unnecessarily also now penalizing people? And how 
do we strike the proper balance between speed and 
effectiveness, but not having the runaway--or the situation 
where there are a lack of fiduciary controls on who is getting 
assistance, who is not warranted. And that actually takes away 
from the people that are most vulnerable.
    Mr. McCaul. You know, I agree. There is a balance that you 
need to strike. And I think, you know, right after hurricanes 
hit, as they have in our state, we advocate on behalf of our 
constituents to make sure they get the assistance they need. 
And sometimes we don't think that comes fast enough.
    I know the chairman mentioned the idea that the people are 
still in these rental assistance properties in New Orleans. I 
don't know what the status of the trailers are, but at some 
point this needs to be kind of--we need to move on, I think, 
and close the chapter.
    But I would be interested in your thoughts on that and 
interested in what the GAO has to say about this, as well.
    And, Mr. Chairman, I do hope that we could have a hearing 
on this issue.
    And with that, I yield back.
    Mr. Cuellar. I believe we did have a hearing on lessons 
learned, didn't we at once? Maybe we can do a follow up on 
that, but I think we did have one as it is. But we certainly 
will follow up on that. Thank you.
    Mr. Fugate. Thank you, Mr. McCaul.
    Mr. Cuellar. The chair now recognizes other members for 
questions that may wish to ask the witness. In accordance with 
our committee rules and practice, I will recognize members who 
were present at the start of the hearing based on seniority of 
the subcommittee, alternating between majority and minority. 
Those members coming in later will be recognized in the order 
of their arrival.
    The chairman now recognizes for 5 minutes the gentleman 
from Mississippi, Chairman Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Fugate, are you comfortable with this budget, with 
respect to you being able to do your job?
    Mr. Fugate. Sir, at this point, given all the information, 
I am comfortable with what we have. I think that before I would 
ask for any adjustments, I would like to have some more time 
looking at my programs to make sure we are operating 
efficiency.
    But I don't see any gaps here that would preclude our 
ability to support states and local governments in a response. 
And, again, the grant programs are those that we have 
recommended and we are working with this process to get that 
budget through.
    Mr. Thompson. You mentioned the grant program. There is a 
program, the fire grant program, that is cut.
    Mr. Fugate. Yes, sir.
    Mr. Thompson. Do you support the cutting of the fire grant 
program?
    Mr. Fugate. Mr. Chairman, we have put together a budget 
that actually looked at increasing funding for staffing. That 
decision was made not to continue supporting the equipment, but 
to support additional staffing in the budget request.
    The other part of this was the fire grants were previously 
identified as standalone. We have merged them into several 
areas to give us, for purposes of budget, four program areas 
that we have put funds into.
    So our emphasis was putting more money into staffing, not 
necessarily continuing the same level of equivalent purchases, 
and providing that in response to local governments who have 
said they needed staff. So we have put our emphasis there in 
this budget request, sir.
    Mr. Thompson. Well, I am going to ask you to revisit that, 
Mr. Administrator, because most of what members of this 
committee hear is just the opposite, is that they need 
equipment. Most of us serve many areas where there are either 
volunteer fire departments or departments with limited 
resources.
    And so I think to make the characterization that, well, we 
are going to do personnel and cut the equipment needs to be 
revisited, because there is significant support for the program 
in its present form. And I don't find any support to cut it 
among the committee members.
    And it has been a good program. And I would encourage you 
to review it and continue it.
    The other issue is, I have been to Hope, Arkansas, and I 
have been to Columbia, Mississippi, along Interstate 59. I have 
seen thousands of trailers. When I say thousands of trailers, I 
mean thousands of trailers.
    What can we tell the public, if another emergency occurs, 
what will happen differently?
    Mr. Fugate. Mr. Chairman, one of the first things is that 
we have looked at--and this is an ongoing issue--how many of 
the mobile homes should we maintain in inventory?
    We also recognize that the travel trailers have significant 
challenges, primarily looking at issues such as formaldehyde. 
We have gone back to industry, and we have come up with some 
specifications to address some of the concerns we have had. We 
actually have some pilots that industry has produced for us at 
our training center in Emmitsburg that we are actually 
providing as housing units to get feedback from people that 
come through Emmitsburg.
    But here is the challenge, sir. We look at a disaster and 
look at housing, I think we have to state what the problem is. 
In Florida, and some of these other disasters, we can look at 
housing issues that would generate 500,000 or more housing 
units destroyed in that disaster.
    How do we address that housing challenge? And oftentimes, 
when we start looking at using any type of trailer or mobile 
home, we reach a point where there is a finite capacity before 
we have to start moving population.
    Mr. Thompson. I don't want you taking all my time, but have 
you looked at any other alternative to trailers?
    Mr. Fugate. Yes, sir. And what we come back to is, what is 
there currently in the manufacturing base that could produce 
something that could provide a housing unit? And looking at 
what people have requested, now----
    Mr. Thompson. I want you to provide this committee with how 
you have pursued alternatives to this temporary housing thing. 
And I want to know, how many of those temporary housing units 
can we reuse?
    Because part of what I saw in Hope, Arkansas, was brand-new 
trailers, never used, probably not being able to be applied to 
a disaster because, you know, they are not usable. And so we 
have never put a family in it.
    And so I refuse to think that that is the only alternative 
for responding, because if we bought them and they sit out and 
decay, then clearly that didn't serve a useful purpose.
    So I would like for you to provide us how you are studying 
that issue. I want to know, have you looked at providing 
housing that can be reused the next disaster? And I would 
venture to say, very little of those trailers can be reused 
based on what I saw. But I would like for you to provide that.
    The other thing, I have letters, Mr. Chairman, I would like 
to introduce into the record----
    Mr. Cuellar. Without objection.
    [The information follows:]

                    Letters submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Thompson. ----with unanimous consent that talks about 
housing. I just got it yesterday, as you know. But, can't 
figure out, based on what you sent us, how much this housing 
option is costing us. And I don't know how we can come up with 
any kind of solution to this housing issue if we really don't 
know how much it is costing.
    We have seen prices up to $75,000 per unit. That is an 
expensive trailer. And I just want your commitment that you 
will work with this committee on trying to get down into the 
weeds and see what the real cost and what alternatives we can 
put on the table to help with this situation.
    Mr. Fugate. Mr. Chairman, I will then assume that what you 
would ask me to do is, if we are going to spend $75,000 on a 
temporary, 18-month solution, there would be a better way to 
meet the housing needs that would be long term and not just a 
temporary fix? Because that is where I look at the same 
concern, sir.
    We are putting an awful lot of money into a temporary 
solution, and we know in these big hits, these are long-term 
challenges. And in 18 months, we are just not going to have 
every house rebuilt. And we have--we are investing a lot of 
money in a patch that isn't getting us through and helping a 
community move to recovery and keeping a community viable is 
all our options are based upon a very short timeframe, that we 
are looking at things that don't provide a housing solution, 
and we are not partnering the long term so that people have a 
home and we can re-establish the tax base in a community.
    Mr. Thompson. No disagreement here.
    Mr. Fugate. And so I am--that is something I am earnest 
about, having seen what we did in Florida and know that we have 
to come up with a better way to do this, both for the immediate 
needs, but also the longer-term issues.
    Mr. Thompson. I yield back.
    Thank you, Mr. Chair.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, the chair recognizes for 5 minutes the 
gentleman from Texas, Mr. Olson.
    Mr. Olson. Thank you very much, Mr. Chairman.
    And thank you, Mr. Fugate, for coming today to testify 
before us, for your service, and, again, congratulations on 
your appointment.
    I kind of want to follow up on some of the comments my 
colleague, Congressman McCaul, made about Ike and some of the 
experiences we have had back home in Texas. It is no longer 
national news, but the recovery from Ike is still an ongoing 
situation, and it is of great concern to me and the people of 
my district.
    And I would like to invite you to come on down and see the 
region, see firsthand what is being done, and, more 
importantly, what still needs to be done.
    I think you would be impressed with the progress that has 
been made, but you might be surprised about what we still need 
to do to get back in recovery. And as you know, we are back in 
hurricane season again. I mean, we could have another one come 
in any time now.
    Last month, FEMA denied a request from the state of Texas 
for 90 percent reimbursement for categories C through G, also 
100 percent reimbursement for categories A and B. FEMA's 
reasoning was that Texas had not reached the $122 per capita 
threshold under 44 CFR 206.47(b). It sounds like I am back in 
law school.
    It is clear, however, that part C of that same regulation 
gives FEMA leeway to take into account other factors, such as 
the impact of disaster declarations in the state over the past 
year. As you know, Texas has had one federal emergency 
declaration and two federal disaster declarations in the last 
year, for Hurricanes Dolly, Gustav, and Ike.
    And if FEMA waits until Texas reaches the $122 threshold, 
it will cost communities an extra $51 million that they simply 
don't have. And working together, what can we do immediately to 
see to it that Texas, and specifically the southeast region, is 
a recipient of the proper reimbursement rates, 90 percent and 
100 percent for A and B?
    Mr. Fugate. Sir, I would have to go back and look at that 
again. Having been on that end, we actually faced that 
challenge, as well, of getting to that per capita before the 
90/10 would kick in.
    I know one of the things that we looked at in 2004 was the 
series of hurricanes and used that to determine how we would 
accomplish the 90 percentile. So, again, we continue to work, 
but there are some within the process that does set thresholds 
under public assistance for when that would be warranted. So we 
will continue to work.
    Mr. Olson. Yes, sir, I look forward to working with you, 
because, yes, there is authority there to alter the threshold. 
It is not just locked down by the title that FEMA sent to 
Governor Perry.
    The other thing I would like to talk to you briefly about 
or ask you about is port security program. As you know, I 
represent part of the Houston ship channel, and that is one of 
the largest ports in our country. All sorts of trade flows 
through there, gas, natural gas, oil, just products coming from 
across the world. And it is only going to grow.
    As we know, the Panama Canal is going to be expanded here 
in the next 2 to 3 years. And those container ships that are 
stopping on the West Coast of the United States from Mexico are 
now just going to punch right through and come to the Gulf 
Coast.
    And I see that the port security grant program was funded 
at $400 million in 2009, but the budget is now seeking--the 
president is now seeking cuts by 38 percent. And I know there 
is some funding in the stimulus for that, but could you tell us 
why the president wants to cut the security grants in fiscal 
year 2010?
    Mr. Fugate. Again, Congressman, I believe that we were 
looking at with those stimulus dollars and looking at what 
additional dollars to bring us back up to the pre-existing--the 
2009 funding levels, and that is what the rationale was behind 
leveraging the funding that was in the stimulus bill that would 
be going out in the process with the 2010 request, which would 
actually overlap.
    Mr. Olson. So you anticipate future requests that will 
reflect the 2009--the previous levels and not the one that was 
in the 2010 budget?
    Mr. Fugate. I think, Congressman, one of the things that we 
attempted to do this year was oftentimes--previously, we came 
in at much lower numbers. We try to reflect a more stable level 
of funding. We know for planning purposes that it makes more 
sense for us to come in at that level and keep a--more 
appropriately in our request, recognizing what the previous 
funding was.
    And so that is kind--when you look at some of the requests 
for funding, if you go back to what the previous requests were, 
oftentimes they were much lower than what the requests were 
this year. So we are trying to recognize what you have been 
doing on the committee to put money there and recognizing more 
of a stable level of request to reflect that.
    But, also, we have to look at--again, as you point out, 
growing needs and challenges. And a lot of our partner agencies 
as part of DHS actually provide input into our grant programs. 
So we anticipate that is actually going to be based upon the 
changing threats and environments and where we see we have to 
then increase capacity or capabilities based upon, as you point 
out, new growth and new opportunities.
    Mr. Olson. Well, thank you very much for your answers. I 
look forward to working with you to get some equitable 
treatment for the Galveston, southeast Texas area for Hurricane 
Ike. And then, again, we would love to have you come down and 
see it firsthand.
    I yield my time.
    Mr. Cuellar. Thank you, Mr. Olson.
    At this time, the chair will recognize for 5 minutes the 
gentlewoman from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Fugate, in recent years, FEMA has been plagued with an 
inability to attract and retain the management and operational 
personnel necessary for the agency to provide optimal 
performance. What assurance and information could you provide 
to this committee to assure us that this will be addressed in a 
serious manner? And what plan do you have?
    Mr. Fugate. Congresswoman, we are working to both fill out 
the team that we have, but also I would like to give some 
credit to Dave Paulison. One of his big undertakings, as he was 
serving with the Post-Katrina Emergency Management Reform Act, 
was to build that staff that Congress had provided more funding 
for, to increase the number of dedicated staff.
    We are committed to continue to build that workforce. It is 
interesting that we still are able to attract a very powerful 
group of people. Particularly, a lot of them come from the 
local state government, which add that capability to FEMA, 
which traditionally has always, you know, from the standpoint 
of states and what we call federal-centric, and we really 
wanted to build that----
    Ms. Richardson. Excuse me. Excuse me, sir. I have now less 
than 4 minutes. What is your current staffing capacity?
    Mr. Fugate. I would have to get back to you the numbers. 
One of the things we have asked in the budget was to address a 
shortfall in funding to get up to the staffing levels. We are 
currently--in this request, we will be able to maintain 92 
percent of all positions filled, figuring that 7 percent is a 
natural process, as you go through replacement and hiring, 92 
percent, 93 percent, is generally about optimum. And this would 
provide us funding for those positions as authorized.
    Ms. Richardson. Ninety-two percent is whose standard?
    Mr. Fugate. Ninety-two percent of the authorized positions 
that we had, we would have funding for those positions based 
upon this budget request.
    Ms. Richardson. Okay. Could you supply to this committee 
what is your staffing capacity in the areas that I requested?
    Mr. Fugate. Yes, ma'am.
    Ms. Richardson. And I would venture to say that, in your 
particular department, what may be okay to have 92 percent of 
authorized is maybe not necessarily reflective of what this 
country needs.
    My second question is, is there a report that indicated 
where the Army Corps of Engineers stands in terms of levees and 
sand walls that do not meet potentially known disasters that 
could occur?
    What I mean by that is, I had an opportunity to go to New 
Orleans on a congressional delegation with the speaker and 
others. And we knew that the levees in New Orleans would not 
meet potential hurricanes and other things that could occur. 
And it is my understanding that the repairs and the work that 
has been done still do not meet what, in fact, occurred with 
Hurricane Katrina.
    So I would be interested in you providing to this committee 
what various sand walls and levees that we have that do not 
meet the requirements of really a potential disaster that we 
know that could occur in this country.
    Mr. Fugate. We will work with the Corps of Engineers to get 
a response, ma'am.
    Ms. Richardson. What does that mean?
    Mr. Fugate. Most of that data would actually be coordinated 
that we will have to get from them what they have and to 
provide that information.
    Ms. Richardson. Is that important to your department, as 
well?
    Mr. Fugate. Yes, ma'am. And the Flood Insurance Program, 
that oftentimes is one of the considerations in determining 
what flood risk is, particularly if those designations change.
    We had the example with Lake Okeechobee, where the 
designation of the dike changed. Well, that actually then 
resulted in the National Flood Insurance Program having to 
change the rate or what the relative risk and increased 
premiums for people who lived around that facility.
    Ms. Richardson. Okay. Well, my question isn't just from a 
rate and an insurance perspective. My question is, what 
responsibility do we have to ensure that the Army Corps, based 
upon your particular department--if you know, for example, 
Sacramento, that it is prone to flooding, and you know that the 
current levees that we have there do not meet what we expect 
could, in fact, occur, at what point are we going to get both 
folks together--you, Army Corps of Engineers--and ensure that 
people who are living are not risking their lives and their 
property and everything else, when we know that it is not 
sufficient?
    Mr. Fugate. I will need to work with the Corps to get back 
and sit down and address these issues specifically.
    Ms. Richardson. Okay. I look forward to working with you. 
Thank you very much.
    Mr. Cuellar. Thank you. Thank you, Ms. Richardson.
    At this time, the chair will recognize for 5 minutes the 
gentleman from Louisiana, Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman.
    And, first of all, I would like to congratulate you on your 
appointment. I am glad to see that we have an administrator of 
FEMA who actually lived in hurricane danger zones and who has 
experienced the difficulties of recovery.
    And I also would like to commend the FEMA agencies for 
making the necessary changes at the local TRO office in New 
Orleans. The changes have produced an office that is more 
efficient and more cooperative in our recovery process. So 
thank you for that.
    I just have a couple of questions concerning recovery 
issues in my district. And the first one concerns the CDLs.
    As you know, the comment period has ended. And I would like 
to know, what plans do you have to expediently release 
guidelines and criteria for different agencies, different 
municipalities to apply for community disaster loan 
forgiveness?
    Mr. Fugate. Again, we are working with our partners and 
getting that together. And I would have to get back to the very 
specific details of where we are at providing that to you, sir.
    Mr. Cao. Because, as you know, many of those agencies and 
municipalities need this information in order to make their 
budget.
    Mr. Fugate. Yes, sir.
    Mr. Cao. My second issue concerns the FEMA appeal process 
and the establishment of the arbitration panel. As you know, 
one of the biggest issues down in our district now is the 
discrepancy considering Charity Hospital.
    The state contends that FEMA owes the state $492 million 
because the structure was more than 50 percent damaged because 
of the hurricane. FEMA contends otherwise.
    How can you assure us that the FEMA appeal process is 
effective and objective when it is being made by FEMA 
officials? And I would like to know the--when do you expect an 
arbitration panel to be established?
    Mr. Fugate. Congressman, I think that--in trying to say 
that we are working towards the consistency and the public 
assistance in the appeal process has been demonstrated by many 
of the concerns of the members about--that that hasn't always 
been that case.
    We are actually looking forward to this arbitration panel, 
because I am, again--I don't like a process that does not have 
a conclusion. And I really think that this arbitration panel is 
going to give us an opportunity, one, to reach consensus and 
get a decision, but more importantly to help us examine what 
our current process is.
    And if we see that the arbitration panel is constantly 
finding where we need to improve our product, that gives us a 
better direction on where our policies are being overruled or 
that we need to adjust those so that, you know, again, we are 
not having to wait for an arbitration process to resolve things 
quickly and efficiently.
    Mr. Cao. And when do you expect an arbitration panel to be 
established?
    Mr. Fugate. We are currently working through DHS to get 
that announced. That is in the works, and we will have staff 
contact you and give you the latest details, but sooner rather 
than later. I am looking at something that we can get going 
here and get moving on things, like Charity Hospital, and get 
resolution and start that process.
    Mr. Cao. And my last question concerns the FEMA, I guess, 
assessment or at least designation of V zones. I live in an 
area outside of the protective levee. And in connection with 
the budget for first responders, the nearest firehouse from my 
subdivision--subdivision is approximately 10 miles down Highway 
90.
    FEMA obligated the money to build a firehouse in Venetian 
Isles and then de-obligated the money to rebuild a firehouse in 
Venetian Isles. Can you explain to me this discrepancy? And how 
will you resolve this issue in the future?
    Mr. Fugate. Congressman, I think you just hit upon a 
challenge we are going to find more and more in this country, 
as we look at mapping the hazards and look at where the highest 
hazards are.
    Historically, our program has always been based upon what I 
call passive mitigation. Don't build in those areas, and if 
something is there and it is damaged, move it. But it never 
really addressed the fact that you have communities already 
there. What do we do for that, particularly if you lose the 
fire station but the houses are still there?
    So we have been working to, one, adjust and look at how we 
better quantify replacing structures. We have implemented a 
better clarification of the V zone rebuilding, that it is 90 
percent replacement costs of a new structure, but also looking 
at how we mitigate structures that are there to protect them 
and looking at, how do we provide for existing communities, as 
these designations change, a more active way of mitigation 
versus a passive way, which is not to rebuild or to move out of 
that area when that is not going to happen with the existing 
community?
    Mr. Cao. Thank you very much.
    Mr. Cuellar. Thank you very much.
    At this time, the chair recognizes for 5 minutes the 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you very much.
    Speaking of mapping, good luck to you, Administrator 
Fugate. You have big shoes to fill, too. Mr. Paulison did a 
great job. Both of you guys are involved in fire safety, which 
is something new for Homeland Security, since you have been 
shut out up until Paulison was appointed to that position.
    I want to bring up with you very briefly, before I get into 
the fire act, regarding a decision made prior to your 
confirmation, but one that I think is very vital not only to my 
district, but many districts throughout the United States.
    It seems the FEMA mitigation division is cutting out small-
and medium-sized businesses in the Risk MAP program, very 
critical and essential. You have to understand flooding and the 
risks, but you need mapping. That is good. And people should 
have--small business should have a shot at that.
    Why they did that, I have no idea. So I am asking you--and 
I sent a letter to you. Senator Menendez sent a letter to you. 
We would like greatly to work with our staffs and see if we can 
come up with some resolution. Would you just quickly respond to 
that?
    Mr. Fugate. Yes, Congressman. Competition is good.
    Mr. Pascrell. So, therefore, we could hear?I like short 
answers, too. I could look forward to productive discussions in 
the future? And I have no idea why they did that, and 
particularly at this time, in view of the hazards that small 
businesses face.
    By the way, the ranking member, the probably algebraic 
reason for?he was comparing Katrina with Ike? Katrina covered 
90,000 square miles. It is the size of some European countries. 
And while Ike had economic damage in $19 billion, the economic 
damage in Hurricane Katrina was $125 billion. Perhaps that is 
one of the reasons.
    I want to get into this issue that I think is very, very 
important. I wrote both of the bills, by the fire act and the 
SAFER act. In fact, we wanted to pass them both at the same 
time, but we took a half a glass of water.
    Those needs existed before 9/11, Mr. Fugate. And based upon 
those very essential and basic needs of fire departments, at an 
average of 23,000 grant applications every year, that is $3 
billion. It is about $4 billion that have come through the 
program since 2000. This is essential: wellness, fitness, 
protective equipment, apparatus, imaging, all the way down the 
line.
    There is no indication, Mr. Administrator, that there is a 
minimizing or a lesser demand now for any of those areas. In 
fact, the secretary was before us. I asked the question, and I 
was very disappointed with her response, in that she said, 
Well, there is money in the recovery act.
    The money in the recovery act, Mr. Administrator, is 
strictly for the building of firehouses. The language is very 
clear. We want this program. Both the chairman and the ranking 
member of this committee, when they were in reversal roles, 
fought for the money in the fire act.
    It is the least bureaucratic program in the entire federal 
government. There is no skimming from the top. We have made 
sure that, through peer evaluations, we have cut out all the 
bureaucracies. So there is no reason under the sun.
    And to say that you are going to take some money from the 
fire act to put it into the SAFER program, both are needed. And 
by the way, the SAFER act is not only a legislation that deals 
with career firefighters. Also, the volunteer firefighters are 
involved, as well, because in many areas of this country, we 
can't get staff to do this.
    This is absolutely a homeland security issue. And I ask you 
to address it forthright.
    Mr. Fugate. Congressman, I hear you. I am ready to work 
with you.
    Mr. Pascrell. Thank you. That is all the questions I have.
    Mr. Cuellar. Thank you, Mr. Pascrell.
    The gentleman--the chair recognizes Chairman Thompson.
    Mr. Thompson. Thank you.
    I appreciate the indulgence, Ms. Titus.
    Mr. Director, so much of what you have heard is based on 
real-life experiences of members of this committee, so I don't 
want you to take what we say personally, but I want you to take 
it as a challenge, to try to go back and work with your team.
    So many times when a new person comes in, they get told, 
``We have always done it this way.'' And so much of what we 
hear as members of Congress from our constituents, ``Yes, but 
it doesn't make sense.''
    And so I hope you will take our concern as real-life, 
everyday scenarios and help us work through very trying times 
for a lot of people. When you have a staff that is never 
personally gone through an experience like that and try to 
match that with people who don't have a roof over their head or 
other kinds of things, it is a tough situation.
    So, given the fact that you have resources, but if you take 
the resources and apply them to business as usual, your legacy 
will not be what it should. And I say that in all sincerity and 
pledge to work with you on creating it, because we can do 
better. We have to do it smarter, and I am sure I speak for 
every member of this committee.
    Your agency responds regardless of political affiliation or 
anything like that. When Americans need held, FEMA should be 
there ready, willing and able to do just that. And it is in 
that spirit that we commit ourselves to working with you and 
you in return help us get some of the nonsensical approaches to 
addressing catastrophes out of the way.
    Mr. Fugate. Chairman Thompson, I have been in government 
long enough to realize I have stood in front of other groups at 
the state level and oftentimes at county commissions, and I 
have often wondered about what I just said, thinking, ``That is 
the most unbelievable, stupid thing I am?up here talking 
about.''
    I appreciate and I pledge as a partner. And I look at the 
bottom line and the outcome. And sometimes, when we start 
talking about programs, I basically went back to it?if I can't 
explain it to my family where they understand it, we have to go 
back and work on it some more.
    Our goal is the same: to meet the needs of our citizens in 
a time of disaster, not to commit fraud or waste, but to 
address the needs and to assure that communities move forward, 
rebuild and recover, and that we define that in such a way that 
we are not spending decades after a disaster not getting back 
to long-term recovery.
    I want to get the tax base back to where it was so we can 
pay for the services. That makes no sense to rebuild the fire 
station if we don't have the money to pay for the firefighters.
    Mr. Thompson. Absolutely.
    Thank you.
    Mr. Cuellar. The chair now recognizes for 5 minutes the 
gentlewoman from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Congratulations, Director. I understand you will have as 
part of your team a young woman from Las Vegas, Allison 
Schwartz. So I look forward to working with her and with you.
    First, I want to say, you have heard from the chairman and 
many of my colleagues about their opposition to the cuts in the 
fire grant program. I would like to go on record as saying I 
completely agree with their position, and I am opposed to it, 
too.
    I have two questions that relate to my district 
specifically, but I think they have broader implications. I 
represent the suburbs of Las Vegas. So we don't have 
hurricanes, but over the years we have had exploding atomic 
bombs, we have had earthquakes, we had the strip on New Year's 
Eve, all of places which could be potential disasters.
    You began your talk by mentioning that you want to work 
more with the private sector. And I don't think we are doing 
enough of that, and we saw where in Mumbai, where you don't 
have enough coordination and planning, that you can have 
disaster.
    In Las Vegas, we have about 125,000 hotel rooms filled with 
people on any day who only know how to get from the Eiffel 
Tower to the pyramid. They wouldn't know anything about 
evacuating.
    So I just wanted to hear you elaborate more on what we can 
do to bring in the private sector, because they have some of 
the best-trained security and the best technology. The eye in 
the sky is about the best you can find.
    And, second, my district, as you know, is region nine, and 
it goes from Guam to Arizona. I think your region originally 
went from Tennessee to the tip of Florida.
    I wonder if those regional designations are really 
appropriate or we should look at restructuring those where they 
are more demographically, geologically, meteorologically 
similar. If you would comment on those two things, I would 
appreciate it.
    Mr. Fugate. Well, the first one is, to me, quite?one of my 
passions. After the 2004 and then the 2005 hurricane season, 
work in the private sector took on a whole new meaning when I 
found ourselves passing out water and ice and food in the 
parking lot of an open grocery store the day after the 
hurricane, because we didn't coordinate ahead of time. It 
didn't seem to me to be a good way to work.
    So I went back and recognized that you cannot have a 
government-centered response to these types of events. You have 
to bring the partnership of the private sector as part of the 
team. We often talk about it, but I don't think we really 
embraced this. They need to have a place in the EOC.
    You know, a lot of people say, ``Well, they are private. 
How do you--government, how do you reconcile stuff?'' Well, I 
worked through the associations. I have attorneys; we will 
figure it out.
    But the bottom line is, just like in Las Vegas and Orlando, 
we have a lot of tourists that aren't even from Florida, much 
less the United States. Don't even speak?you know, they are 
coming internationally, so we have languages of the different 
visitors we have.
    And so we know that if we are not working with businesses 
and our businesses don't meet the needs of those folks in an 
emergency, they won't come back. That kills the tax base.
    And as a critter that has always been around government, I 
recognized a long time ago, if you don't have a tax base, you 
don't have the ability to provide services.
    So it isn't a question of one or the other. That is part of 
the team. And if we don't make sure that our businesses are 
part of that process, that we understand their role in the 
economy and we make that a focus of what we are doing, we may 
respond well to a disaster and kill the recovery because we 
never get back that economic engine to keep us going forward.
    Ms. Titus. Well, great. I hope you will be working with our 
hotels and our resort association in Las Vegas to make those 
plans.
    And what about the regions?
    Mr. Fugate. Regions? I would have to go back to the history 
of FEMA. I never understood that. I just know they got 
established back in 1979.
    I think part of it was trying to cluster geographically 
threats and areas and also population, but, quite honestly, it 
is a discussion that is occurring right now within Homeland 
Security, looking at all the different components that we don't 
even have a standard regional structure within DHS, much less 
the federal government.
    And to be honest with you, Congresswoman, we tried this in 
Florida. There has never been more kicking and screaming about 
counties, about which region they were moving to or out of to 
get them all to be the same between law enforcement, fire, 
emergency management, health, but we got it done.
    But, again, it is a partnership of looking at making sure 
it makes sense, because those regions are really how we want 
to, as FEMA, be delivering services and working with our states 
so that we are closer to the people we serve versus everything 
having to come from Washington.
    Ms. Titus. I appreciate that. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Ms. Titus.
    Members, are there any other questions that you all want to 
ask, follow up?
    Mr. Fugate, I want to thank you for being here, on behalf 
of the committee. Just two points before we close.
    The first point I would like to make is the?we want you to 
understand that sometimes, you know, between the executive and 
the legislative branch there is a feeling of us versus them. 
And I certainly want you to understand that this committee in a 
very bipartisan way wants to work with you. We want to be your 
partners. We want you to be able to communicate.
    I know you have your congressional liaison folks. Use them, 
but we certainly want you to be able to sit down with us and 
talk to us. So to break this us versus them, because it is one 
team together.
    So we certainly want you to be able to work with us. We 
want to work with you, and we certainly want you to feel 
comfortable to talk to us and have your staff talk to our 
committee staff, both Democrats and Republicans all working 
together.
    The second thing is, I like your approach. I think Bill 
said it. You have very simple answers to certain things, very 
definite about certain things. Use your state and local 
experience to think outside the box, because, at the end of the 
day, we don't want people to say, ``God, what a good process we 
have there at FEMA.'' I think what they want to say is, ``Man, 
they are able to get results.''
    I think we want to see the results. We want to talk about 
results and not talk about processes. So we just want you to 
just keep those two points in mind.
    I want to thank you for being here with us, for your 
valuable testimony, and, of course, for answering the members' 
questions. Keep in mind that the members of the subcommittee 
may have additional questions, and they might submit those 
questions, and we would ask you to submit those back as soon as 
possible.
    Hearing no other business, the hearing is adjourned.
    Thank you, members.
    Thank you, Mr. Fugate.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]


                         A  P  P  E  N  D  I  X

                              ----------                              


                             For the Record

                        Questions and Responses

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

              Responses from the Honorable W. Craig Fugate

    Question 1.: The Disaster Relief Fund (DRF) provides support for 
response, recovery, and mitigation operations in the wake of a major 
disaster. We had a hearing on March 3, 2009 discussing the Public 
Assistance and Hazard Mitigation grants that come from this fund. These 
funds are critical to recovery efforts. FEMA requested a $600 million 
increase for the DRF, which seems appropriate considering last year's 
floods, ice storms, hurricanes, and wildfires.
    Why is FEMA redirecting funds from this critical fund to provide 
$35 million for Operations and Management and another $10 million to 
repair underground storage tanks?
    There should be strict oversight of FEMA's use of these funds for 
purposes outside the scope of the DRF. Are there other funds that could 
be used for these ancillary projects besides those funds in the DRF?
    Response: The fiscal year 2010 OMA budget request reflects the 
amounts required to sustain the improvements in operational response 
and internal capacity approved in fiscal year 2009 and FEMA's efforts 
to achieve the mandate of Post Katrina Emergency Management Reform Act 
(PKEMRA). This includes the proposed transfer of funds from the DRF to 
OMA, which is necessary to sustain staffing to support FEMA's ability 
to fulfill its emergency management mission.
    The fiscal year 2009 staffing increases in OMA have been a 
significant factor in FEMA's effort to strengthen its operational 
response and internal capacity. For example, the Disaster Operations 
Directorate was able to strengthen its operational response capacity by 
expanding the number of Incident Management Assistance Teams (IMAT), 
and adding staff and upgrading facilities and equipment to enhance the 
Agency's 24/7 operational awareness capability.The Logistics Management 
Directorate has added staff across the regions to institutionalize 
command and control of strategic logistics planning, operations, and 
management while pushing operational control down to the most effective 
level of execution. These are just a few examples of the significant 
staffing investments that FEMA has been able to achieve in the effort 
to fulfill its program mandate under PKEMRA.
    The amount in the proposed OMA appropriation reflects funding that 
can support an operational response and internal capacity staffing 
level of only 85 percent. However, the Administration also proposed the 
transfer of up to $50 million from the Disaster Relief Fund--$35 
million specifically to be used for structural pay--which would provide 
sufficient funding to enable the Agency to reach the full staffing 
levels approved in the fiscal year 2009 budget. The $2 billion request 
for the Disaster Relief Fund reflects an annual requirement based on a 
5-year average using only direct disaster obligations (not including 
catastrophic events). The transfer would not have a material impact on 
the ability to meet the needs of communities and families affected by 
disasters. Moreover, in fiscal year 2010 the OMA appropriation assumed 
the funding responsibility for 688 positions formerly funded from the 
DRF, which freed up funding in excess of the transfer authority needed 
to fund the OMA positions. Storage tank repair has been requested as a 
$10 million initiative within the OMA appropriation.

    Question 2.: This Committee worked hard to ensure a strong 
authorization for the Emergency Management Performance Grant Program 
(EMPG), which provides all-hazards preparedness and planning funding to 
state and local governments. According to the National Emergency 
Management Association, the EMPG program fails to meet state and local 
needs by $487 million annually. The President's fiscal year 2010 Budget 
Request for this program was $315 million which is the same as the 
appropriated amount, $315 million, for fiscal year 2009. With the 
increasing threats to our domestic security, what is the rationale 
behind continuing the program at last year's level of funding?
    Response: We recognize the importance of the Emergency Management 
Performance Grant program, which funds baseline capability for 
emergency management across the nation. We have asked for $315 million 
in the fiscal year 10 budget, and although that is consistent with the 
fiscal year 09 enacted amount, it is actually an increase of $115M over 
the fiscal year 2009 request. There are allowable activities within 
this grant program that can also be accomplished under the State 
Homeland Security Program (such as exercises and training) so we 
believe that $315M is an appropriate amount for the fiscal year 2010 
cycle.

    Question 3.: The Congressional Budget Office estimated in a 2007 
report that for every $1 the Nation spends on the Pre-Disaster 
Mitigation program, taxpayers save $3 in response and recovery costs. 
Can you please explain for the record how this program results in a net 
savings for the country?
    Response: The PDM program provides a net savings to the country 
through the implementation of cost-effective mitigation measures 
designed to reduce risk from future natural hazard events. Properties 
mitigated result in either avoiding damage or the damage is to a lesser 
degree as compared to buildings/ structures that have not been 
mitigated. The losses avoided include lowering or elimination of repair 
and/or replacement costs, reduction or elimination of loss of function 
of that building or facility for the duration of repair, and lowering 
of cost to respond and recover from the impact of the hazard event. 
This cumulative savings of various types for each mitigated structure 
when combined for all mitigated structures results in the cumulative 
net mitigation related savings for the country.
    The PDM program is specifically designed to assist States, 
Territories, Indian Tribal governments, and local communities to 
implement a sustained pre-disaster natural hazard mitigation program to 
reduce overall risk to the population and structures from future hazard 
events, while also reducing the reliance on Federal funding from future 
major disaster declarations. Hazard mitigation is the most proactive 
and successful method for reducing the physical, financial, and 
emotional losses caused by disasters. In fact, the Multi-Hazard 
Mitigation Council (established in 1997 as a voluntary advisory, 
facilitative body of the National Institute of Building Sciences) 
released a report in December of 2005 stating that mitigation saves 
society an average of four dollars for every dollar spent. The study 
further stated that mitigation results in significant net benefits to 
society as a whole--to individuals, to states, and to communities--in 
terms of future reduced resource losses and savings to the Federal 
Treasury in terms of future increased tax revenues and future reduced 
hazard-related expenditures. More recently, the Congressional Budget 
Office (CBO) released a report, ``Potential Cost Savings from the Pre-
Disaster Mitigation Program,'' that found the total dollar value of the 
expected reduction in disaster losses from the projects funded (to 
date) exceeds the projects costs. Furthermore, CBO indicated that, on 
average, future losses are reduced by about $3 for each $1 spent on 
those projects, including both federal and non-federal spending. The 
CBO study explained that PDM savings would likely benefit two FEMA 
programs. ``Any federal savings from PDM-funded mitigation projects 
would occur largely in FEMA's disaster relief programs (which are 
funded from discretionary appropriations) and in its National Flood 
Insurance Program (which ordinarily is not funded through the 
appropriation process).''

    Question 4.: FEMA has indicated that Pre-Disaster Mitigation will 
no longer be distributed on a competitive basis and funding will now be 
determined using a base-plus-risk formula.
    What factors will be used as criteria in the ``base-plus-risk'' 
formula to assist FEMA with determining how resources will be 
allocated?
    In terms of Pre-Disaster Mitigation Grant funding, do you feel that 
the transition to a base-plus-risk model will enhance the effectiveness 
and efficiency of the program and if effectiveness and efficiency will 
be increased please explain why you believe this to be the case and 
what are the key reasons for the increase in effectiveness and 
efficiency?
    Is the current $150 million appropriation an adequate funding level 
to achieve a seamless transition and if so, please explain why?
    Can you explain what factors would be considered for the risk based 
formula and what modeling systems would be used to assess risk?
    Response: In fiscal year 2010, FEMA proposes to transition from the 
nationally competitive process to a base plus risk-based allocation, 
subject to the existing statutory base allocation of $500,000 per 
State. The transition to a risk-based allocation will be phased over 
approximately 24 months. There are a number of advantages to the 
proposed change. The base-plus risk grant funding approach provides 
States with a more consistent source of funding with priorities 
established based on risk. With more consistent funding levels, States 
can better anticipate the workload developing proposals and 
implementing projects. The approach also implements the Stafford Act by 
taking into account the extent and nature of the hazards to be 
mitigated when providing predisaster financial assistance. The approach 
is founded on an equitable process to ensure all States receive funding 
proportionate to their vulnerability to natural hazards.
    Beginning in fiscal year 2010, FEMA plans to implement a simplified 
approach for risk-based allocations. We are working to evaluate 
existing national datasets for use in fiscal year 2010. For example, 
the natural hazards that have contributed to the most Disaster Relief 
Fund outlays, and for which the most PDM funding has been obligated, 
include riverine flooding, coastal flooding, earthquake, hurricane 
wind, tornado wind, and wildfire. FEMA will evaluate this past loss 
experience, as well as existing national risk data sets, to develop a 
simplified approach for risk-based funding in fiscal year 2010. We 
anticipate releasing the fiscal year 2010 proposed allocation and 
methodology in mid-summer 2009.
    The fiscal year 2010 transition will focus on funding projects that 
each State selects from the current FEMA list of ?pending? but not 
funded PDM projects. These pending but unfunded projects have already 
been fully vetted and determined to meet program requirements and State 
priorities. A significant benefit of this transitional process will be 
that funds can be obligated and work initiated quickly. In fiscal year 
2010, under the risk-based approach, FEMA will provide applicants with 
assistance in developing new pre-qualified proposals that meet PDM 
requirements for funding in fiscal year 2011. Once funding is available 
in fiscal year 2011, these pre-qualified proposals can be finalized to 
meet other Federal requirements (e.g., non-federal cost share and NEPA) 
so that funds can be obligated and projects initiated more 
expeditiously.
    Over a 24 month timeframe, FEMA will continue to develop and 
improve the risk-based formula which would be applied to determine 
State PDM allocations. The data necessary to develop accurate natural 
hazard risk profiles at the State level for each of the natural hazards 
is not uniformly available at this time. FEMA currently has national-
level probabilistic damage information within its HAZUS models for 
hurricane wind and earthquake hazards, and has also developed national-
level damage information for the one percent (i.e., the 100-year) 
riverine flood.
    FEMA will rely on nationally available, reliable datasets as the 
baseline information for determining risk. These include sources from 
FEMA, and other agencies such as the U.S. Geological Survey, the 
National Oceanic and Atmospheric Administration, National Weather 
Service, and U.S. Forest Service. FEMA will evaluate hazard data with 
other data sets such as population, growth estimates, and an inventory 
of the built environment for each State. The proposed approach is 
modeled after the one used for allocating funds for the MapMOD 
initiative, and utilizes HAZUS data.
    FEMA is developing an outreach strategy for engaging with 
stakeholders (NEMA, ASFPM, NAFSMA). FEMA has already begun this 
outreach through the established Hazard Mitigation Assistance External 
Stakeholders Work group - a group consisting of States, local 
government, and Indian Tribal Government. By mid-summer, we anticipate 
releasing the proposed allocation and methodology for comment. This 
would include both the national risk profile, and the methodology for 
applying that profile to the distribution of fiscal year 10 
appropriated funds.
    The costs of establishing and running a risk-based allocation 
program in the initial year are not greater than the costs of running a 
nationally competitive program. Thus, the $150 million requested is 
adequate to achieve a seamless transition.

    Question 5.: The fiscal year 2009 Budget Request was $300 million 
for FIRE Grants ($775 million enacted in fiscal year `09), with no 
funding for the Staffing for Adequate Fire and Emergency Response 
(SAFER) Program. The fiscal year 2010 Budget Request was $590 million 
for FIRE Grants, of which $420 million was proposed for grants for the 
SAFER Program ($220 million enacted in fiscal year 2009), and $170 
million is proposed for the Assistance to Firefighters Grant (AFG) 
program ($565 million enacted in 2009 with an additional $210 million 
provided in the Recovery Act). Based on the fact that historically, 
most of the applications for FIRE grants come from volunteer and 
combination fire departments. The requests made by career fire 
departments in 2008, composed only about 12 percent of the 
applications.
    What is FEMA's official position on the reduction of resources for 
these grant programs?
    What steps has-or will-FEMA take to encourage more career fire 
departments to apply for FIRE grants?
    Response: The fiscal year 2010 submission represents the 
Administration's request, based on the inputs it has received from 
members of the fire service, its recognition of the detrimental effect 
of diminishing public safety budgets on the safety of our citizens, on 
the acknowledgement that there needs to be a finite approach to 
domestic spending in all areas, and on the knowledge that there are 
several funding streams emanating from DHS, and other federal programs, 
that provide financial assistance to fire departments.
    FEMA will continue the outreach activities it has carried out with 
the fire service, and will also seek to expand directed outreach 
through both the representatives of metropolitan fire service areas. We 
believe it is critical in our outreach efforts to make clear the 
effective and worthwhile support that AFG can provide to fire 
departments of all types and sizes.

    Question 6.: The Post-Katrina Reform Act aimed to improve 
interoperable emergency communications on a regional basis and 
established Regional Emergency Communications Working Groups in each of 
the 10 FEMA Regions. These working groups were created to provide 
regional coordination points for multijurisdictional and multi-agency 
emergency communications preparedness and response efforts within each 
region.
    How do you plan to incorporate the State Interoperability 
Coordinators in the FEMA regions?
    Response: State Interoperability Coordinators are already being 
incorporated into FEMA Regional Disaster Emergency Communications (DEC) 
preparedness and response activities. For example, the State 
Interoperability Coordinators routinely participate in FEMA's Regional 
Emergency Communications Coordination Working Group (RECCWG) meetings 
throughout the Nation. Beyond this, significant coordination is taking 
place during DHS Office of Emergency Communications (OEC) sponsored 
events which bring together State Interoperability Coordinators, FEMA 
Regional DEC staff, and OEC staff to address issues. OEC recently 
hosted a major National Summit in San Diego, California, in which FEMA 
and OEC staff met to discuss interoperability and RECCWG issues with 
the State Interoperability Coordinators.

    How do you plan to incorporate the Office of Emergency 
Communications regional staff into the Regional Communications Working 
Groups?
    Response: FEMA is already working with OEC leadership to more 
clearly define the duties and functions of the new OEC Regional staff 
so that FEMA and OEC emergency communications activities at the 
regional level complement each other. As part of this effort, OEC 
Headquarters staff is actively participating in every FEMA RECCWG 
meeting until OEC reaches full regional staffing. Information sharing 
and integration is a critical function needed to improve interoperable 
emergency communications. The OEC staff is providing FEMA valuable 
information from the OEC Statewide Communication Interoperability Plans 
and Tactical Interoperable Communications Plans, which is very 
beneficial in helping FEMA's DEC staff and the RECCWGs better 
understand and address the issues and priorities of the Regions and 
States.
    How do you plan to overcome the tremendous interoperability 
challenges that FEMA regional offices currently face?
    Response: The Post Katrina Emergency Management Reform Act (PKEMRA) 
assigns the Administrator of FEMA the responsibility of helping to 
ensure that first responders have interoperable communication 
capabilities. FEMA is implementing a tactical disaster emergency 
communications program to:
        <bullet> Ensure operable and interoperable communications are 
        available in a disaster;
        <bullet> Provide voice, video, and data communications 
        capabilities for emergency responders and Federal partners; and
        <bullet> Support emergency communications operational 
        requirements across the entire disaster management lifecycle--
        preparedness, mitigation, response, and recovery.
    FEMA serves as the lead Federal integrator and coordination point 
for Federal agencies in providing tactical emergency communications 
support to Federal, State, local, and tribal governments during 
disaster responses. FEMA's activities complement the strategic-level 
focus of OEC by providing for the tactical and operational planning and 
coordination with all levels of government to ensure that Federal 
assets and support are effectively deployed during a disaster response. 
FEMA's tactical disaster emergency communications program is being 
carried out by the Disaster Emergency Communications (DEC) Division in 
the Disaster Operations Directorate and throughout the ten FEMA 
Regions. The DEC Division, in coordination with DEC Staff in the 
Regions, is developing policies and operating procedures to facilitate 
more effective disaster emergency communications operability, 
survivability, and interoperability; however, in an attempt to make 
sure that we are optimizing program implementation and adopting a more 
holistic approach, we are continuing to examine the structure of the 
DEC Division.
    Additional FEMA activities that are helping to address 
communications operability, survivability, and interoperability issues 
include the following:
        <bullet> DEC Coordinators in each FEMA Region to coordinate 
        with and provide technical assistance to our State and local 
        partners.
        <bullet> Routine Regional Emergency Communications Coordination 
        Working Group (RECCWG) meetings that include OEC, National 
        Communications System, and Federal Communications Commission 
        representatives to address emergency communications 
        capabilities within the States and across State borders.
        <bullet> Coordination with OEC, both FEMA Headquarters and 
        Regional DEC Staff, to improve disaster emergency 
        communications capabilities and to strengthen the Federal 
        disaster response. Examples of coordination include:
        <bullet> Support to OEC in producing the National Emergency 
        Communications Plan;
        <bullet> Leveraging OEC's Statewide Communication 
        Interoperability Plans and Tactical Interoperable 
        Communications Plans to identify State and local emergency 
        communications requirements and strategies to improve tactical 
        response capabilities;
        <bullet> FEMA participation in OEC-led working group meetings 
        which provide an opportunity to strengthen interoperability 
        among Federal responders.

    Question 7.: There are multiple overlapping tools to assess 
preparedness, gaps, and capacity that have been developed by FEMA which 
require state and local participation and input. This includes the GAP 
Analysis, Cost to Capabilities, Target Capabilities, Integrated 
Planning System, Capabilities and Readiness Assessment, Nationwide Plan 
Reviews--phases I and II, and more.
    What are your plans for using these assessments to measure and 
account for preparedness?
    Is FEMA cognizant that the reporting requirements on State and 
local officials-required by FEMA-could reach a diminishing point of 
return? What safeguards are in place to prohibit this from occurring?
    How do you plan to address the fact that multiple requirements for 
these assessments overlap one another?
    Response: FEMA has reached a point in implementing the 
Comprehensive Assessment System (CAS) that permits the agency to assess 
the nation's emergency preparedness at the state and federal levels. We 
are compiling the first National Preparedness Report (NPR) that will 
reflect these assessments and our interpretation of them. The first 
draft of the National Preparedness Report will be submitted for review 
by NPD leadership at the beginning of July and its submission to FEMA 
leadership, and the Federal Interagency concurrence process will 
proceed thereafter. Through the CAS, we believe we are in a position to 
measure national preparedness within an acceptable margin of error. The 
CAS and quantifiable metrics are constantly being improved, and next 
year's National Preparedness Report will reflect that, as will the ones 
that follow.
    After discussions with stakeholders earlier this year, FEMA 
leadership committed to seek opportunities to consolidate and/or reduce 
duplicative or similar reporting requirements. Since March, The Office 
of Policy and Program Analysis has led a FEMA working group, comprised 
of internal FEMA staff and external stakeholders from state, local and 
tribal governments, to help discuss and identify ways to reduce the 
impact of FEMA's collective information requirements on the state, 
local and/or tribal governments
    While there have been efforts underway to lessen the burden of 
these requirements, including establishing FEMA Grants Program Task 
Force and addressing the recommendations in the Analysis of Federal 
Preparedness Requirements, FEMA leadership would like to expand on 
these efforts for greater collaboration and integration.
    As a starting point, a FEMA working group convened to begin 
compiling a comprehensive list of FEMA reporting requirements. This 
group will work to further clarify existing overlaps, if any, and 
develop a path forward that will reduce the impact of FEMA's collective 
information requirements on the States.
    This review will include, but will not be limited to, the Target 
Capabilities List (TCL), NIMS compliance requirements, planning 
requirements for emergency management and homeland security grants, 
National Planning Scenarios, Gap Analysis Program (GAP), State 
Preparedness Reports, Comprehensive Assessment System, and the Cost-to-
Capability pilot.
    In the short term, the working group's main goals are to (1) 
develop ways to improve collaboration with internal and external 
stakeholders to build partnerships and increase communication; (2) 
identify and eliminate duplicative requests and requirements; and (3) 
minimize the number of requests from FEMA.
    The long-term objectives will be determined once the near term 
assessment is completed. But, we expect and envision establishing 
within FEMA a process to vet and consolidate FEMA reporting requests to 
minimize burden on state, local and tribal governments.
    In addition, FEMA has worked with the Science and Technology 
Directorate on a number of technology development activities. One is a 
prototype tool that uses the TCLs as a starting point to provide a 
measure of a locality's preparedness based on the locality's existing 
infrastructure and resources. This capability supports ``what if'' type 
assessments to quantify the effect of investments on the total 
preparedness picture.

    Question 8.: When utilizing the GAP analysis program to assess the 
shortfalls of states in responding adequately to catastrophic 
incidents, does the program take into account mutual agreements such as 
the Emergency Management Assistance Compact (EMAC), and does the 
program require states to exhaust all mutual aid agreements before the 
federal government would fill that gap?
    Response: Through the Gap Analysis Program's (GAP) Data Collection 
and Analysis Tool (DCAT), states have the ability to identify resources 
and capabilities that can be obtained from a number of sources beyond 
the state, including Emergency Management Assistance Compact (EMAC) 
agreements, private sector contracts, and nongovernmental 
organizations. During the data collection process, FEMA Regions strive 
to ensure that all state resources have been examined and accounted for 
prior to the inclusion of federal resources in the GAP analysis. Given 
the complexity of responses during disasters and the number of 
variables involved, GAP is neither intended nor designed to guarantee 
the capability of stakeholders in all possible situations. The 
inclusion of federal resources is made after examining many factors, 
including an estimate of resources available to the state and the 
state's responses to-date. The intent of GAP is to facilitate state 
disaster planning and preparations as well as to provide the federal 
inter-agency community with information that can facilitate federal 
planning and more effective disaster response support to the states.
    In addition, the Science and Technology Directorate is developing a 
standard model for managing resource types and has tested a prototype 
version at the local level in the Seattle region. The model has been 
very successful and FEMA will build on this to standardize it for use 
at the local level. This model will facilitate a standard syntax that 
will help mutual aid agreements so appropriate resources can be 
identified and shared quickly.

    Question 9.: As you know, EMAC is the state-to-state mutual aid 
compact that helps states respond to disasters with capabilities built 
by other states.
    Can you tell us about the support that FEMA gives to EMAC and how 
you partner with the program and various states, please provide 
specific examples?
    During a catastrophic incident, as defined in public law 109-298,, 
what support do you give to the ``EMAC-A team'' at the National 
Response Coordination Center?
    When does the authorization end for the ?EMAC A-team Program? and 
does FEMA support the program's reauthorization?
    Response: FEMA has entered into a Cooperative Agreement (CA) with 
the National Emergency Management Association (NEMA) for EMAC. The 
current CA is for $5.1 million which supports EMAC administration, 
training and operations. In accordance with the cooperative agreement, 
the EMAC Staff actively participate in the FEMA NIMS/NRF activities to 
develop Resource Typing of equipment and teams, Credentialing of 
personnel for interstate mutual aid, Resource Management Guidelines, 
and participation in other stakeholder groups such as the IAFC 
Emergency Management Committee developing firefighting specific mutual 
aid programs. EMAC Staff even chaired the NIMS Credentialing Working 
Group to draft the soon to be released NIMS Credentialing Guideline. 
Under the CA, EMAC developed Mission Ready Packages to extend many NIMS 
resource definitions into fully contained packages with integral 
support and supply to perform complete mission when deployed through 
EMAC. Additionally, FEMA Staff actively participate in the EMAC 
Committee, EMAC Executive Task Force and the EMAC Advisory Group to 
ensure full awareness and coordination between EMAC Mutual Aid and FEMA 
NIMS/NRF programs and activities.
    When a Major Disaster is declared, FEMA activates a standing 
contract by issuing a task order to NEMA to have the EMAC A-Team deploy 
to the NRCC to coordinate resources being provided to the declared 
State. However, this process can result in delays in the arrival of the 
A-Team while the task order is created and issued by a contracting 
officer. Because of this situation the EMAC Staff and FEMA personnel 
have been discussing adding a pre-authorized deployment activity of the 
A-Team to the CA to minimize the delay and improve the effectiveness of 
their response to the NRCC and appropriate RRCCs.
    The Congressional authorization for the funding of EMAC expired on 
September 30, 2008. The current Cooperative Agreement for EMAC was 
modified by a no-cost extension to provide the existing funding through 
March 2010. FEMA supports EMAC through a Cooperative Agreement with 
NEMA for continued support and enhancement of the program.

    Question 10.: In the Post- Katrina Reform Act, Congress required 
FEMA to make its logistics system more flexible and responsive. FEMA's 
inability to effectively manage and track requests for and the 
distribution of water, ice, food, and other supplies came under harsh 
criticism in wake of Hurricane Katrina.
    What is the status of FEMA's logistics re-engineering efforts 
including specific deadlines and objectives?
    Will a logistics management and tracking system be used during this 
hurricane season? If so, please specify how the system will be used? If 
not, when is completion of this important system expected?
    Response: FEMA Logistics, since elevated from a branch to 
Directorate-level in April 2007, continues to pursue the development of 
both internal and external National Response Framework (NRF) 
partnerships and enhancement of the national supply chain for domestic 
incident support. The objective is a logistics system/capability more 
robust, flexible and adaptable. Specifically, the directorate has 
fostered strong partnerships with U.S. NORTHCOM, Defense Logistics 
Agency, U.S. Army Corps of Engineers (USACE), General Services 
Administration (GSA) as co-lead for Emergency Support Function 7 
(Logistics Management and Resource Support), and Emergency Support 
Function 6 (Mass Care). FEMA is improving logistics readiness by 
enhancing our capability to provide transparent supply chain In-transit 
visibility (ITV) and accountability of disaster commodities. FEMA fully 
supports one of the Nation's top priorities to ensure the needs of 
disaster survivors are met in an effective and timely manner.
    In its role as National Logistics Coordinator (NLC), our Logistics 
team has worked diligently to strengthen its business processes and 
leverage the best practices by enhancing relationships with both the 
public and private sector partners through various initiatives for a 
more coordinated logistics response operation.
    Specific to the Logistics Supply Chain Management System (LSCMS).
    The Logistics Supply Chain Management System (LSCMS), to this point 
referred to as Total Asset Visibility system, encompasses multiple 
applications and technologies which we use to manage response 
operations and track resources. The system became operational as a 
pilot in 2006. There are 6 components to the system which partially 
automate critical supply chain functions. In 2007, LMD made significant 
refinements, integrating the system components and making them more 
user-friendly. The components of the (LSCMS) are:
        <bullet> Requester module (eTasker)--requests to FEMA 
        headquarters for commodities and resources (3361 eTaskers in 
        2008)
        <bullet> Trading Partner Management (TPM)--order management and 
        tracking
        <bullet> Warehouse Management System (WM)--warehouse and 
        inventory management and fulfillment (currently at 2 of 9 
        Distribution Centers (DCs).
        <bullet> Performance Management (PM)--Provides basic reporting 
        capabilities on orders, inventory and shipments (20,848 
        shipments in 2008)
        <bullet> Global Positioning Systems (GPS)--devices placed on 
        fixed assets and trailers to help track shipment locations
        <bullet> Integrated Rail/Road Information System (IRRIS)--
        displays physical location of in transit (ITV) shipments using 
        mapping software and GPS technology
    The following Logistics Supply Chain Management capabilities are 
available for Hurricane Season 2009:
        <bullet> State requirements for national commodities 
        electronically communicated from the Regions to Headquarters 
        (eTasker)
        <bullet> All disaster resource requirements entered into one 
        order management system and can be viewed by headquarters and 
        the regions (TPM)
        <bullet> Currently two out of nine of FEMA's DCs manage 
        warehouse inventory and shipments via the Supply Chain 
        Management suite of systems (WM).
        <bullet> Shipment information from our primary supply chain 
        partners, DLA, USACE, and GSA, will be automatically imported 
        into the order management application providing visibility of 
        all shipments to the field (TPM)
        <bullet> Automated receiving and shipping capabilities at our 
        field receiving, storing, distribution staging bases. (TPM)

    Additionally, we are working to add the following capabilities by 
the timeframes shown:
    End of 2010:
        <bullet> Extend automated Warehouse Management (WM) capability 
        to 6 of the remaining 7 DCs with the 7th DC enabled by the end 
        of 2011. (Note: This is the same warehouse system used by major 
        distributers such as Wal-Mart, Home Depot and FEDEX)
        <bullet> Implement mobile automated data sharing capability at 
        remote sites (TPM)
        <bullet> Provide automated capability to manage transportation 
        actions (Transportation)
        Improve automated request functionality to better meet user 
        needs (eTasker)
        <bullet> Fully implement the Performance Management (PM) 
        capabilities for enhanced reporting, alerting, and decision 
        support
        <bullet> Update GPS Managed Services which will replace current 
        obsolete technology and provide nationwide GPS Management 
        response capabilities

    By end of 2012:
        <bullet> Extend automated warehouse management capability to 
        the last of FEMA's DCs (WM)
        <bullet> Provide fully automated System To System data sharing 
        for orders and shipments with partners (TPM)
        <bullet> Refresh/upgrade hardware and COTS software to latest 
        releases

    Question 11.: The President's FY'10 Budget is requesting that we 
cut the Emergency Food and Shelter program by 50% simply because the 
program received funds through the Recovery Act enacted earlier this 
year.
    What was the purpose of providing $100 million to the Emergency 
Food and Shelter program through the Recovery Act if the President was 
planning to reduce the annual appropriations by $100 million?
    Does this rationale and approach defeat the purpose of Recovery 
Act?
    Response: The Emergency Food and Shelter (EFS) Program was 
appropriated $153 million in fiscal year 2008. In fiscal year 2009, the 
request was for $100 million and the annual appropriation for the 
program was $200 million. The fiscal year 2010 annual request is 
consistent with the 2009 request, and reflected a focus of resources on 
the primary mission of preparing for and coordinating disaster response 
and recovery efforts, while still providing substantial support for the 
EFS Program.
    Congress appropriated an additional $100 million to the EFS Program 
via the American Recovery and Reinvestment Act of 2009 (ARRA).

    Question 12.: In June 2008, GAO reported that FEMA collected 
property acquisition data (for completed projects) in a haphazard 
manner because FEMA's grants management system lacks the capability to 
record acquisition data. As a result, FEMA cannot readily determine the 
extent to which flood-damaged and repetitive loss properties have been 
acquired through its mitigation programs.
    How can FEMA ensure accountability within the purchases program if 
the agency is unable to determine exactly what is being purchased?
    How can FEMA effectively prioritize it efforts in the absence of 
accurate property acquisition data?
    Response: FEMA has the ability to track all components of an 
application, verify the effectiveness and ensure accountability of our 
Hazard Mitigation Assistance (HMA) programs.
    By verifying the individual project at application for cost-
effectiveness, engineering feasibility and property eligibility, FEMA 
is able to identify potential program effectiveness (e.g., losses 
avoided). That effectiveness is subsequently verified again at project 
closeout, when all property mitigation actions are complete. Tracking 
the status of a project and the associated properties prior to closeout 
currently requires coordination within FEMA and with the State and 
local partners and is not a function of the current Electronic Grants 
Management System (eGrants), created in 2004. FEMA is currently 
considering consolidating all HMA grants into one grants management 
information system in concert with DHS that will support the entire 
grant life cycle from solicitation through award and closeout. The 
enhanced information system will track property level mitigation data 
for acquisitions in real-time by providing the capability for required 
grantee quarterly reporting and including project closeout capabilities 
in an electronic format.
    The application data contained in our eGrants system is used to 
provide an accurate accounting of the currently approved grant 
applications and can be queried to determine the number and location of 
specific properties approved for funding in the non-disaster HMA 
programs. This allows us to develop internal reporting capability for 
each program on a fiscal year basis that reflects the number of 
applications submitted and approved, individual properties included in 
the applications and approved for funding, the Repetitive Loss/Severe 
Repetitive Loss status of the individual properties and the proposed 
mitigation technique for the project and each property. This data along 
with the funding requirements and benefit cost analysis information 
enable FEMA to develop a thorough accounting and understanding of the 
effectiveness of our HMA programs.
    The current National Flood Insurance Program (NFIP) Repetitive Loss 
data set includes over 15,000 mitigated Repetitive Loss properties. The 
data reflects the mitigation action taken as well as the funding 
source(s) used to mitigate the structure. The funding source(s) 
includes our non-disaster HMA programs of Flood Mitigation Assistance, 
Repetitive Flood Claims and Severe Repetitive Loss, as well as our 
historic grant program (1362), the increased cost of compliance 
coverage (ICC) afforded under the NFIP policy, other FEMA and Federal 
Agency grant programs and State, local and privately funded mitigation 
actions as well. This data enables FEMA to monitor and evaluate the 
effectiveness of the programs as they relate to Repetitive Loss and 
Severe Repetitive Loss properties.
    Additionally, Hazard Mitigation Assistance Unified Guidance 
requires that each Repetitive Loss/Severe Repetitive Loss property 
mitigated be reported using a standard format. This form is used to 
document the completion of successful mitigation of Repetitive Loss/
Severe Repetitive Loss property records and immediately update the 
property status in the NFIP database. Its standardized use will enhance 
our ability to gather project mitigation data in a more timely manner 
and to ensure a thorough reflection of mitigation actions in the 
database.
    The NFIP loss history of properties remaining on the unmitigated 
Repetitive Loss/Severe Repetitive Loss data set is one of the primary 
tools used to prioritize FEMA efforts in the implementation of our non-
disaster flood programs. These records identify the location, and 
potential savings to the National Flood Insurance Fund if the 
properties were to be mitigated. In addition, it enables FEMA to see 
where recent NFIP losses have occurred resulting in a prime environment 
for concentrated mitigation efforts.
    This data is consistently shared with our State and local partners 
along with training materials that are provided to assist with 
development and submission of appropriate, effective grant applications 
under all of our HMA programs.

    Question 13.: Prior to joining FEMA as its current Administrator, 
Administrator Fugate was the State of Florida's director of Emergency 
Management, and while holding that post he used a lot of social media 
tools at the state level.
    How can these tools be used at the national level through FEMA and 
please provide specific examples?
    States other than Florida are beginning to use social media tools 
to prepare citizens for specific events, like Memorial Day on the 
National Mall or a volcano in Alaska. What are your plans to implement 
similar effort at FEMA?
    Response: FEMA currently utilizes social media tools at the 
national level, such as RSS feeds, YouTube, Twitter, Facebook, widgets 
and podcasting through its External Affairs office to provide pre-event 
preparedness information, disaster-specific information and a 
collaborative space for public feedback and participation in the spread 
of agency information. The focus of these tools is to engage the 
public, our partners, and our internal audience with content that is 
formatted for easy sharing and distribution. These are maintained 
regularly, and content is mission-specific so as to encourage 
engagement pre-disaster for the widest audience possible.
    Image-based social media tools, such as YouTube, have been used 
nationally to provide footage of federal response activities, 
statements by key officials, and vignettes that explain programs or 
responsibilities related to FEMA's mission. One recent FEMA YouTube 
video was a Public Service Announcement supporting a state-specific 
message for public assistance grant input, and encouraged greater 
responses from local governments to file for assistance following a 
Presidential Disaster Declaration.
    FEMA has been using its national Twitter account since October 2008 
to support state and local messaging during response and recovery and 
to assist the networking of preparedness messages. The national Twitter 
account has been used to support messaging in many instances, with 
active regional accounts to support locality-driven content. Most 
recently, FEMA's national and regional accounts (@femaregion8 and 
@femaregion5 on twitter.com) were part of the messaging surrounding the 
response and recovery for the North Dakota / Minnesota floods.
    FEMA has been using its FaceBook page to encourage volunteerism, 
preparedness, safety and national programs such as Citizen Corps.
    Working with its Disaster Assistance Directorate, FEMA has 
developed a widget (a graphical piece of web code that can be paced on 
other websites such as blogs and .gov domains) that provides one-click 
assistance tools to individuals. This widget links to search functions 
maintained by FEMA for such things as federal disaster aid 
registration, non-federal resources, disaster temporary housing 
locator, disaster recovery center locator and a missing family member 
locator service. This widget is designed to be deployed for a mass 
evacuation or major disaster that results in a declaration involving 
individual assistance.
    Agency-wide, FEMA's office of Policy has been working with program 
areas to identify resource needs and opportunities to use these tools. 
FEMA has identified three uses for social media: internal, external, 
and situational awareness. One example is how FEMA's Disaster 
Operations Directorate can employ such public tools (twitter, Flickr, 
FaceBook) to gather real--time disaster information for situational 
awareness and such integrate technologies and collaborative practices 
into its partnerships with state, local and other federal agencies. 
Currently, web 2.0 tools are being used to enhance such operations-
driven platforms as HSIN. Internally, FEMA has launched its ESW 
(Enterprise Shared Workspace) to create a collaborative work 
environment for FEMA employees.
    FEMA is already using tools both on its fema.gov domain and off-
network to provide the public preparedness and disaster-specific 
information. Part of the plan involves empowering Joint Information 
Centers to use regionally-specific accounts to engage local audiences 
while being supported by national level networks on tools such as 
Twitter. FEMA's External Affairs office branded its use on social media 
sites as FEMAinFocus to maintain legitimacy and credibility of message.
    These tools offer a collaborative space to spread messages created 
by state and local partners and provide support through our 
distribution network. Examples of these tools are :
        www.facebook.com/fema
        www.twitter.com/femainfocus
        www.youtube.com/fema
        http://www.fema.gov/medialibrary
        http://www.fema.gov/help/rss.shtm
    More tools are scheduled to be rolled out in the near future and 
are scalable to the need to communicate.
    Question 14.: After Hurricane Katrina, many questions were raised 
whether FEMA or HUD should bear the responsibility for addressing the 
long term housing needs of disasters survivors.
    Please explain for the record the timeframes associated with the 
various disaster housing stages, including-but not limited to-
sheltering, interim housing, temporary housing, and long-term housing.
    Where do you believe the long term disaster housing responsibility 
should be placed and what kind of adjustments would need to be made 
within FEMA in relinquishing that responsibility?
    Response: The timeframe for the various disaster housing stages can 
best be described as a variable continuum. The continuum can be viewed 
as occurring in three phases; Sheltering, Interim Housing, and Long-
Term Sustainable Housing. The phases are a definitional distinction, 
and are not meant to imply that an individual or household must 
progress through all three phases, or that a community would progress 
through the stages at the same time. The duration and scope of each 
phase are event specific.
    Sheltering is the provision of immediate, temporary housing in a 
congregate setting, generally in public/private facilities to 
individuals and households displaced by disaster and/or emergencies. 
This life-sustaining service may be required as a protective action 
prior to an impact or in the post impact environment.
    Interim Housing is safe and secure temporary housing that meets the 
physical accessibility needs of the household and includes essential 
utilities, access to areas for food preparation, and bath facilities. 
Interim housing is designed to provide a temporary housing solution 
that allows a family to live together, with a reasonable amount of 
privacy, for a period generally up to 18 months, and are generally pet-
friendly. Examples of interim housing options include rental resources, 
temporary home repairs to increase livability of a damaged dwelling, 
and factory-built housing.
    Permanent Housing is suitable, self-sustainable housing that 
addresses the disaster-related needs of the individual or household.
    The National Disaster Housing Strategy clarifies the lead on 
permanent housing, ``when Federal permanent housing assistance is 
needed, HUD will have the lead responsibility under this Strategy and 
will coordinate with its partners to provide housing and community 
development resources.''
    FEMA and HUD are in the process of evaluating existing program 
authorities and related funding requirements to identify enhancements 
needed to support the future delivery of comprehensive permanent 
housing assistance to State and local governments and individuals. This 
includes evaluation of HUDs Community Development Block Grant program, 
FEMA's Individuals and Households Repair Pilot Program, as well as the 
jointly administered Disaster Housing Assistance Program.

    Question 15.: Please describe, and include a timeline, of the 
current disaster declaration process and how long it typically takes 
for a state to get a declaration? What is the role of the President, 
the DHS Secretary, the FEMA Administrator, and what if any role is 
served by Office of Management and Budget and any other functions or 
roles served by federal or state government?
    Response: C.F.R. 206.33 sets forth the process for State and local 
governments to follow when an incident occurs, or is imminent, which 
the State determines may be beyond the State and affected local 
governments' capabilities to respond. The State will make a request 
through the Regional Administrator that a joint Federal, State, and 
local government Preliminary Damage Assessment (PDA) be conducted in 
the affected areas. The PDA is the mechanism used to determine the 
impact and severity of damage to affected area and identifies any unmet 
needs of individuals, businesses, the public sector, and the community 
as a whole. The findings of the PDA are used by the State as a basis 
for a Governor requesting supplemental Federal assistance. The 
Department of Homeland Security, Federal Emergency Management Agency 
(FEMA) processes all gubernatorial requests for supplementary disaster 
assistance related to major disasters, emergency declarations, appeals, 
and cost share adjustments under the Robert T. Stafford Disaster Relief 
and Emergency Assistance Act, 42 U.S.C. 5121 et seq. (the ``stafford 
Act''). This process can take any amount of time depending upon the 
information contained in the request and the analysis of all available 
information surrounding the request. The process may take longer if 
additional State and local government damage information to the public 
and/or private sector is revealed after the initial request has been 
submitted and the governor submits an amended request.
    Once the FEMA Administrator's recommendation is forwarded to the 
White House, the Stafford Act grants only the President with the 
authority to approve a Governor's request for a major disaster 
declaration or an emergency declaration.

    Question 16.: Are there specific areas of the Stafford Act that you 
think need reform or revisiting? What are your plans for addressing 
changes to the Act? What areas give you greatest concern? Do you 
believe that a separate designation for catastrophic incidents is a 
concept worthy of exploring?
    Response: FEMA is always evaluating our authorities and look 
forward to working with Congress to make the Stafford Act as strong as 
possible. The goal of FEMA is to make sure that the agency's Stafford 
Act authorized grants and technical assistance programs become a model 
of effectiveness and efficiency, as stated in FEMA's testimony before 
the committee.

    Question 17.: The current state of the National Emergency 
Management Training Center in Emmitsburg, Maryland is out of date, 
technologically deficient, and disconnected with emergency responders.
    How do you propose to address these issues and what is your plan 
for enhancing emergency responder training?
    Are there other first responder training centers that FEMA intends 
to use for first responder training purposes? 1Response: Facilities:
    1. NETC facility master plan to address critical facility needs. In 
the fiscal year 2009 Department of Homeland Security Appropriations Act 
and its accompanying Senate Report, the Congress asked FEMA,
        . . .submit a master facilities plan to the Committee for the 
        maintenance and modernization of both the Emergency Management 
        Institute and USFA campuses, within 120 days after the date of 
        enactment of this act (January 30, 2009). This plan should 
        include any needed infrastructure improvements, building 
        renovations, and life-cycle costs. Additionally, the plan shall 
        identify where efficiencies can be gained through joint 
        efforts.?

    In response to this request, FEMA prepared a response which is 
summarized below:
    Facilities at the NETC are in poor condition and in need of repairs 
and upgrades. In recent years, with the exception of fiscal year 2008, 
funding for preventive maintenance has been very limited resulting in 
many deferred projects. On August 24, 2007, FEMA contracted with 
Parsons, a nationally recognized engineering firm, to conduct a 
comprehensive third-party assessment of the physical condition of FEMA-
owned real property including NETC and develop a detailed estimate of 
the current condition and deferred maintenance of each facility.

Technology Systems:
        1. In 2009, EMI launched a major effort to replace EMI's entire 
        Independent Study (IS) computer hardware system. EMI's distance 
        learning system is one of the largest the nation with 
        approximately 2 million completions a year. Additionally EMI is 
        purchasing a full redundant backup system to insure continuous 
        service to the students.
        2. Establishment of a technology working group for the campus. 
        The National Emergency Training Center (NETC) facilities master 
        plan developed in December 2008 identified the need to 
        significantly upgrade technologies used by Emergency Management 
        Institute, US Fire Administration and its National Fire Academy 
        to support their training and education programs. A NETC 
        Education Technology Working Group was formed to develop a 
        technology master plan for the NETC campus that improves the 
        capability to provide training and education to support the 
        Nation's efforts to prepare for, prevent, protect against, 
        respond to, and recover from natural disasters, acts of 
        terrorism, and other man-made disasters, including catastrophic 
        incidents.
Curriculum Upgrades:
        1. Significant effort to update EMI's curriculum. EMI has 
        dedicated significant resources to the development and revision 
        of the curriculum in the past two years. During this period, 
        EMI has committed more than $4.5 million dollars for the 
        development or revision of 54 resident, field and independent 
        study courses. This effort represents approximately 20% of 
        EMI's total curriculum.
        2. EMI increased the availability of training through a blended 
        training approach of offering in various formats for more 
        flexibility in delivery. EMI delivered 134 off-site resident 
        courses in fiscal year 08 at various locations nationwide to 
        better reach our target audience. EMI also partnered with the 
        Center for Domestic Preparedness (CDP) for delivery of EMI's 
        Incident Command System (ICS) curriculum through CDP's mobile 
        training teams. To date CDP has used EMI's curriculum to train 
        more than 81,000 emergency responders in ICS techniques and 
        procedures.
        3. Significant revisions to the State ``G'' course curriculum. 
        EMI maintains a specialized curriculum of 74 courses 
        specifically designed to be delivered by state and local 
        training officers. In fiscal year 2008, EMI formed a nation 
        wide working group of state training representatives to review 
        and prioritize course to better align them to the needs of 
        state, tribal, and local emergency managers. These revisions 
        will enable EMI to continue to fulfill a critical mission to 
        train state, local, and tribal personnel with information that 
        reflects current state-of-the-art federal operational doctrine. 
        Inherent in this are the values to strengthen core 
        capabilities, competencies and capacities; strengthen FEMA's 
        partnership with States; and professionalize the national 
        emergency management system. The revision effort began in 
        fiscal year 2008 and will continue through fiscal year 2010.
        4. EMI has substantially increased its distance learning 
        program. The number of Independent Study courses has increased 
        from 21 in 2001 to more than 89 in 2009. Several additional 
        courses are being converted to distance learning format and 
        will be added this year and next.
        5.EMI distance learning courses are now available on the web 
        24/7. On-line course completions average more than 7 K per day 
        at an average cost of $1.06 per course.
        6. The demand for training in emergency management keeps rising 
        at almost exponential rates:
                a. Resident course offerings rose from 142 in 1993 to 
                564 in 2008--an increase of more than 333%.
                b. Resident course students rose from 4,442 in 1993 to 
                14,508 in 2008--an increase of more than 320%.
                c. Distance learning course rose from 6 in 1993 to 89 
                in 2008--an increase of more than 1,400%.
                d. Distance learning completions rose from 20,772 in 
                1993 to 1,997,833 in 2008--an increase of more than 
                9,500%. In 2006, there were 3,715,304 completions. In 
                the 4 years (2005 to 2008), a total of 9,536,216 
                courses were completed. Cost per student is $1.06.
                e. Total number of Community Colleges, Colleges, and 
                Universities offering degrees in emergency management 
                rose from 3 in 1993 to 108 in 2008. The 108 degrees in 
                2008 are composed of 37 Associates, 24 Bachelors, 40 
                Masters, and 7 Doctoral. There has been a steady rise 
                in the number of degrees every year since 1993. There 
                are, in addition, 54 certificates, minors, diplomas, 
                and tracks offered by other institutions of higher 
                education.
                f. The number of higher education courses available 
                from EMI went from none in 1993 to 26 in 2008, with 
                another 6 currently under development. An estimated 
                10,000 students were enrolled in emergency management 
                degree programs in 2007, with another 20,000 students 
                having taken one or more of the higher education 
                courses.
        7. EMI's curriculum includes 19 Train-the-Trainer courses. 
        These Train-the-Trainer courses pay a major role in building 
        the capacity of state and local training programs.

Disconnected with emergency responders:
    1. Emergency management training focus. The primary focus of EMI's 
training program is the Nation's emergency management community. This 
group forms a key component within the national emergency response 
community. Anecdotal evidence from the International Association of 
Emergency Managers (IAEM) and the National Association of Emergency 
Managers (NEMA) clearly shows EMI's training curriculum is in sync with 
the training needs of the emergency response community.
    2. EMI is working closely with key emergency management 
stakeholders to develop a 5 year strategic plan. Over the last several 
months, senior Emergency Management Institute (EMI) leadership has 
conducted a series of focus groups with stakeholders from the federal, 
state, tribal, local as well as non-profit and professional 
organizations education and training communities. The purpose of these 
focus groups is to enhance EMI's understanding of stakeholder education 
and training needs and thereby develops strategies to assist EMI in 
better meeting these needs.
    Each focus group discussed a series of topics covering EMI's 
current and future mission; roles; responsibilities; curriculum; course 
delivery methods; classrooms; support facilities; use of technology; 
and specific tribal, state, and local training needs. When completed, 
feedback from each focus group will be analyzed and compiled into a 
strategic planning document. This planning document will be used to 
establish EMI strategic goals, objectives, and direction for the next 5 
years.
    To date EMI has conducted five of these strategic focus groups. The 
next one is currently scheduled at EMI for Monday, July 20. This focus 
group will draw from State Training Officers (STOs). The seventh focus 
group is planned for late July and will include Regional Training 
Managers from each of the FEMA Regions.
    In addition to the National Preparedness Directorate's Emergency 
Management Institute, the United States Fire Administration (USFA) and 
its National Fire Academy (NFA) operate from the National Emergency 
Training Center (NETC) campus.
    USFA was chartered by Public Law 93-498, the Federal Fire 
Prevention and Control Act of 1974, which called for the establishment 
of NFA to promote the professional development of the fire and the 
emergency response community and its allied professionals; the 
development of a technology development program to improve fire 
protection and suppression technologies; the operation of a National 
Fire Data Center to collect, analyze and dissemination information on 
the national fire problem; and the education of the public regarding 
fire prevention.
    The USFA's NFA supports State and local training organizations to 
fulfill their obligation to the career and volunteer fire and emergency 
services. USFA's NFA also develops, delivers and manages educational 
and training programs having a National focus and which are outside 
state and local training missions or exceed State and local 
capabilities because of cost or audience. The programs are designed to 
support the Department of Homeland Security and FEMA goals to help 
State and local response agencies prevent, mitigate, prepare for, and 
respond to local, regional and national emergencies.
    Classes are conducted approximately 47 weeks a year and the student 
body includes representatives of the Federal, state, and local 
government; volunteer organizations; private industry; and educational 
institutions. Students attend classes for a period of 2 days to 2 weeks 
and come from all over the United States. There is also no tuition 
cost, students are generally reimbursed for the transportation to and 
from Emmitsburg, and ground transportation is provided between 
Emmitsburg and airports in the Baltimore-Washington area. The only cost 
to the student is their meal ticket and local transportation at their 
point of departure. Students apply for and are accepted into specific 
courses. Acceptance is generally based on the benefit the community 
will derive from the training and improvement of present job knowledge 
and skills. Classes are not open to the general public. In fiscal year 
2008, NFA conducted 334 course offerings for 7,992 students at the NETC 
campus, sponsored 258 course offerings to 5,654 students off-campus, 
and provided training opportunities to 36,437 individuals through their 
Learning Management System. In additions, through State and local 
partners, 3,453 offerings were provided to 71,811 students.

    Question 18.: In August 2007, GAO reported that, according to the 
National Pandemic Strategy and Plan, the Secretary of the Health and 
Human Services is to lead the federal medical response to a pandemic, 
while the Secretary of Homeland Security will lead the overall domestic 
incident management and federal coordination. In accordance with the 
Post-Katrina Emergency Management Reform Act of 2006, the Administrator 
of FEMA is designated as the principal domestic emergency management 
advisor to the President, the Homeland Security Council, and the 
Secretary of Homeland Security.
    In what ways have the roles and responsibilities been tested and 
clarified in the monitoring and response to the H1N1 virus outbreak?
    Response: The Federal roles in responding to the 2009 H1N1 flu were 
tested and clarified during the response to the early outbreak with the 
Homeland Security Council ensuring strategic policy and interagency 
coordination of all homeland-security-related activities among 
executive departments and agencies and supporting effective development 
and implementation of appropriate policies. As called for in the 
National Response Framework, the HSC assembled the Domestic Readiness 
Group (DRG), which met several times during the spring outbreak to 
provide inter-agency policy coordination, and continues to address 
issues related to the 2009 H1N1 flu in a coordinated and proactive 
manner. The Department of Homeland Security has the lead for 
coordination of Federal incident management and planning activities, 
while the Department of Health and Human Services leads coordination of 
the Federal public health and medical response to the 2009 H1N1 flu.

    What lessons have been learned thus far in managing a large-scale 
flu epidemic?
    Response: There have been a number of lessons learned thus far 
related to the 2009 H1N1 flu related to both the desire to undertake 
efforts to limit the spread of flu and how to implement an effective 
national response should a major pandemic break out. The HSC, in close 
coordination with the Department of Homeland Security, has been leading 
an extensive coordinated Federal inter-agency effort to identify and 
address the challenges in addressing a potential major 2009 H1N1 flu 
outbreak. These efforts have been successful at increasing Federal 
coordination and cooperation in developing effective approaches to 
address those challenges, and in increasing the information available 
throughout the nation regarding the nature and extent of a possible flu 
outbreak. As part of this effort, Federal departments and agencies have 
been reaching out to the State, local and private sector stakeholders 
to ensure effective communication and identify remaining challenges. 
Key lessons learned include the need for: effective and timely 
communication of accurate information regarding the disease; ensuring 
officials at all levels have an understanding of the secondary and 
tertiary impacts of community mitigation measures such as school 
closures; identification of funding sources for protection and 
prevention activities to head off a major flu outbreak; and the need 
for policies and plans to ensure effective continuation of critical 
public and private functions should large portions of the workforce be 
impacted by the flu. The HSC and the Department of Homeland Security 
are coordinating Federal efforts to work with their State, local and 
private sector stakeholders to address these issues.

    Question 19.: The Post-Katrina Act of 2006 required FEMA to 
constitute national and regional Interagency Management Assist Teams, 
or IMATs, which are intended to give FEMA a forward leaning presence to 
better manage and coordinate responses to catastrophic incidents. As of 
earlier this year only two national IMATs and four regional IMATs were 
operational.
    How many IMATs is FEMA authorized or required in law to form?
    Response: In SEC. 303., PKEMRA states that FEMA shall establish--
``(A) at a minimum 3 national response teams; (B) sufficient Regional 
response teams including Regional Office Strike teams under section 507 
of the Homeland Security Act; and (C) other response teams as may be 
necessary to meet the incident management responsibilities of the 
Federal Government.'' It further required that FEMA ensure that the 
teams ``. . .consist of adequate numbers of properly planned, 
organized, equipped, trained, and exercised personnel. . .''
    Long before the enactment of PKEMRA, FEMA maintained its disaster 
response capabilities, with established Emergency Response Teams-
Advanced (ERT-As) in each of the ten FEMA Regions, staffed on a 
collateral duty basis by Regional personnel, and two National Emergency 
Response Teams (ERT-Ns), staffed on a collateral duty basis by Regional 
and Headquarters personnel.

    How many will FEMA form?
    Response: FEMA is in the process of establishing 3 National IMATs 
and a Regional IMAT in each of the ten FEMA Regions for a total of 13 
teams. The IMAT Program was initiated in fiscal year 2007 and is 
targeted for completion in fiscal year 2011.

    Why have there been significant delays in constituting these teams?
    Response: Establishing the National and Regional IMATs is a 
complicated process that requires not only assigning/hiring of 
experienced, qualified team members, but also procurement of extensive 
Team support elements. For example, the procurement of specialized 
personal and team communications equipment and vehicles, office space, 
and facilities, as well as development of training programs and written 
operational procedures and related doctrine are all required. The Teams 
are being established using an incremental/phased-in approach.
        <bullet> March 2008: National IMAT East
        <bullet> June 2008: Region IV, V, and VI IMAT
        <bullet> September 2008: National IMAT West and Region II IMAT
    We are continuing to examine personnel requirements for the 
Regional and National IMATs to determine optimal staffing and 
capability levels.

    Why is FEMA still requesting funds for the Emergency Response Teams 
and the FIRST teams when the IMATs should be assuming the roles and 
responsibilities of these teams?
    Response: Prior to the development of the IMATs, FEMA maintained 
ERT-As in each FEMA Region and two National Emergency Response Teams 
(ERT-Ns). Before establishment of the IMATs was initiated, two 
dedicated full-time Federal Incident Response Support Teams (FIRST) 
were established, one in Region IV and one in Region V.
    The fiscal year 2008 budget identified six months of funding for 
the FIRSTs. This funding was necessary to keep the FIRSTs operational 
until they could be subsumed by the Regions V and VI IMATs. Because the 
FIRST responsibilities were incorporated into the IMAT 
responsibilities, the remaining funding that was to be used for the 
FIRSTs was rolled into the overall IMAT budget. Similarly, funding for 
the ERT-Ns was incorporated into the overall IMAT budget during the 
transition from the ERT-Ns to the existing National IMATS.
    Regions that currently do not have an IMAT, (Regions I, III, VII, 
VIII, IX, and X) are still maintaining their ERT-As as their primary 
Regional response teams. As IMATs are established in these Regions, 
funds that were utilized for ERT-A support will be diverted and 
included in the Region's IMAT funding budget. It is our intention to 
request funding necessary to establish all of the planned Regional and 
National IMATs.

    Question 20.: As former State officials, the Secretary and the 
Administrator understand the concerns caused by unfunded mandates on 
State, local, and tribal governments. The Department is in discussions 
with governors from around the country about replacing the REAL ID 
program with something that accomplishes the same goals but is less 
burdensome on the States, many of which are already facing budget 
crises. The President's fiscal year 2010 budget includes $50 million 
for the Driver's License Security Grants Program and $25 million to 
support the information sharing and verification requirements of the 
REAL ID Act. Can you please elaborate on how this funding will be used, 
and explain how the funds might be utilized should the REAL ID program 
be revamped?
    Response: The $50 million for the Driver's License Security Grants 
Program continues our commitment to assist states in their efforts to 
improve the integrity and security of driver's licenses and 
identification cards.. The 9/11 Commission recommended that ``secure 
identification should begin in the United States'' and the Federal 
Government should set standards for the issuance of sources of 
identification. State-issued identity documents have been used to 
facilitate acts of terrorism, identity theft, identification fraud and 
other crimes.
    Specifically, states will continue to use these grant funds to 
improve Department of Motor Vehicle (DMV) data and information 
technology systems, privacy protection capabilities for personally 
identifiable information, facility security, and identity document 
validation processes. They will also add fraudulent document 
recognition training, incorporate additional security features into 
their driver's license and identification cards and improve internal 
security capabilities to reduce insider fraud. These activities are 
critical for secure identification in the United States and are 
consistent with REAL ID compliance and proposed PASS ID requirements.
    The $25 million request for fiscal year 2010, if appropriated by 
Congress, will be used to complete and deploy verification capabilities 
to enable DMVs to check source documents provided by applicants, 
including structured testing and system connectivity for participating 
states. The project received $50 million in fiscal year 2009. The 
current PASS ID bill still requires verification of social security 
number and lawful presence. The other verification capabilities would 
be authorized through a voluntary demonstration project that includes 
review of security and privacy measures necessary to protect the 
integrity and physical security of driver's licenses as well as the 
appropriate governance structure to manage the capabilities. The $25 
million would primarily be applied to the demonstration project.
    Some fiscal year 2010 funds will also be used to develop, implement 
and maintain a DMV compliance assessment and audit program for all 
fully compliant states. The concept of operations for the compliance 
assessments and audit is being developed in collaboration with the 
Department of Transportation (DOT) and will include relevant DHS and 
DOT assets and interactions with state DMVs. This would also be 
required under the current PASS ID proposal.

    Question 21.: The Transportation Security Agency's (TSA) First 
Observer program is supported by the trucking security grant program, 
which has been targeted for termination according to the lack of funds 
in the President's Budget Request. At the same time, the budget 
justification for TSA's request, with regard to surface transportation 
security, states that the Highway Information Sharing and Analysis 
Center (ISAC) will be continued through fiscal year 2010.
    How is ISAC, which is part of the First Observer Program, going to 
be continued if the source of its funding is being eliminated?
    Will you please coordinate with TSA to address this issue and 
report back to the Committee?
    Response: The First Observer program was funded for $15.5 million 
by the fiscal year (FY) 2008 Trucking Security Program (TSP) grant, 
which has a 36-month period of performance. The HMS Company was awarded 
the fiscal year 2008 TSP grant for the First Observer program, and it 
developed its budget, which includes funding for the Information 
Sharing and Analysis Center (ISAC) for 36 months from the date of 
award. The grant award date was July 15, 2008, so the period of 
performance for the grant runs through July 14, 2011. Therefore, the 
Information Sharing and Analysis Center will continue to operate 
through mid-July 2011, funded by the fiscal year 2008 TSP grant.

    Question 22.: Inter-city bus grants are an important element of 
securing the Nation's transportation systems, which is why the Congress 
saw fit to establish the program in the 9/11 Act, public law 110-53. 
Despite being underfunded since its creation, this program provides 
important resources, through a risk-based award process, to a segment 
of surface transportation that is often overlooked. A GAO report cited 
in the budget justification for terminations did not suggest that this 
program be eliminated or absorbed by another; in fact, the February 
2009, GAO report reaffirmed the vulnerability of commercial vehicles to 
terrorist acts and emphasized that more work and resources are required 
to adequately measure and strengthen security in this sector.
    Please explain why the President's FY?10 budget request does not 
seek to fund this program?
    Please explain how eligibility for funds under the Transit Security 
Grant Program will improve the security of our Nation's inter-city bus 
system when TSGP funds are not being increased to accommodate this 
additional mode of transportation and there are already significant 
problems with the distribution of TSGP funds?
    Response: The 2009 IBSGP provided funding to operators of fixed-
route intercity and charter bus services to support security plans, 
facility security upgrades, and vehicle and driver protection. 
Recently, the funding has gone to private sector entities for business 
investments in GPS-type tracking systems that they could be making 
without Federal funding.
    The Government Accountability Office has recommended that TSA 
conduct an in-depth risk analysis of the commercial vehicle sector per 
its recent report (GAO 09-85). For now, this program should be 
eliminated in favor of funding initiatives aimed at mitigating verified 
transit threats. Funding for the intercity bus industry should be 
included in the larger Public Rail/Transit Security Grant Program and 
prioritized against all transit-related security investments. This 
issue will be discussed with stakeholders during the guidance 
development activities for the fiscal year 2010 cycle.

    Question 23.: As you know, current FEMA regulations prohibit pool 
enclosures, even temporary ones, on the first floor of a hotel. Many 
hotels in South Carolina have had enclosures for the past 30 years, and 
it was not until last year that FEMA started to enforce these 
regulations despite the regulations being roughly 30 years old.
    Has FEMA documented any major impacts to infrastructure or bodily 
harm due to temporary pool enclosures in Myrtle Beach?
    Why did FEMA ignore the enforcement of these regulations for the 
past 30 years?
    Is FEMA aware of the economic impacts and job losses that are 
projected to occur with the new enforcement of these regulations in 
Myrtle Beach and elsewhere?
    Outside of South Carolina, other states, such as Florida, are 
facing the same problems with these newly enforced regulations. How 
many other states will be affected? What will the total cost run for 
compliance?
    Will FEMA consider amending the current regulations to 
``grandfather-in'' or exempt existing properties from the regulations, 
as long as the temporary pool enclosures are not up during hurricane 
season?
    Response: FEMA deploys post-disaster Mitigation Assessment Teams 
(MAT) to conduct forensic studies of building performance after major 
storms. FEMA has documented major impacts to buildings from 
obstructions, including enclosed swimming pools underneath elevated 
buildings, as seen in the photograph below.
    Hurricane Ivan--FEMA Post-Damage Assessment--Orange Beach, AL 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    As this post Hurricane Ivan photograph shows, the breakup of a pool 
and other nonstructural elements contributed to significant level of 
damage in the lower level areas due to flood forces. Although the pile 
foundation and structural elements survived, damage to the lowest floor 
exterior walls, interior partitions, and floor slabs occurred during 
Hurricane Ivan. In addition to causing considerable debris and damage 
to this building, debris can also impact surrounding buildings, and add 
to overall damage clean-up.
    Through the MAT post-damage assessments, we know that lower level 
enclosures that are not designed to meet the minimum requirements of 
the NFIP create obstructions that cause structural loads, and thus 
damages to the elevated portion of the building, adjacent buildings, 
and result in increased debris removal costs. They also pose additional 
liability to the National Flood Insurance Fund through increased 
damages and flood insurance claims.
    It is important to note that it is the community's responsibility 
to enforce minimum NFIP floodplain management regulations, not FEMA's. 
The enforcement of enclosure limitations has been a part of the program 
since the 1970s. The vast majority of participating communities have 
effectively enforced this important flood damage prevention measure. 
Records demonstrate that FEMA conducted a community assistance visit 
(CAV) in July 2002. The enclosed swimming pools underneath elevated 
building were not discovered during this particular CAV because most of 
the enclosures are typically removed around Easter when the weather 
warms up. In March 2007 the South Carolina NFIP State Coordinator's 
office conducted a CAV and discovered the non-compliant enclosed pools. 
The State also discovered that the practice of enclosing pools 
underneath elevated buildings was being allowed through an 
interpretation of the Myrtle Beach Zoning Ordinance, in direct conflict 
with the Myrtle Beach Flood Damage Prevention Ordinance. FEMA has since 
learned that a local judge has ruled that the City has been 
misinterpreting the zoning ordinance and that the zoning ordinance only 
allows enclosed pools outside the footprint of elevated buildings.
    In responding to the public's desire to have an enclosed area below 
an elevated building, but recognizing the potential risks to lives and 
property, the NFIP floodplain management regulations permit only 
parking of vehicles, building access, or storage below the lowest 
elevated floor in A Zones and V Zones. To further minimize flood 
damages, these enclosed areas are to be built with flood resistant 
materials and mechanical, electrical, plumbing equipment and other 
service facilities must be designed and/or located so as to prevent 
damage during conditions of flooding. In A Zones, the walls of enclosed 
areas below the elevated building must contain openings that will 
permit the automatic entry and exist of floodwaters to withstand 
hydrostatic pressure. In V Zones, which is subject to high velocity and 
wave action, buildings must be elevated on open foundations constructed 
of pile, posts, piers, or columns and the area below the lowest floor 
of elevated buildings must either be free of obstruction, or any 
enclosure must be constructed with open wood lattice-panels or insect 
screening or, be constructed with non-supporting, non-load bearing 
breakaway walls which meet applicable NFIP criteria.
    In 1983, the NFIP began to limit the insurance coverage for 
enclosed areas below the lowest floor of elevated buildings due to the 
financial losses that the Program experienced when we provided full 
coverage for these enclosures. This determination was based on an 
analysis of loss experience from 1978 to 1982 which shows that the NFIP 
was paying out $5 for every $1 of premium collected on basement 
buildings and elevated buildings with enclosures. The 1983 coverage for 
enclosures was limited to foundations elements and limited machinery 
and equipment necessary to the function of the building. The limitation 
of flood insurance for enclosed areas of an elevated buildings is 
consistent with the floodplain management requirements for these 
enclosures which minimize the damage potential to the building.
    Finished enclosures increase the damage potential to the foundation 
and to the elevated portion of the building that are insured by the 
NFIP. Improperly constructed enclosure walls and utilities which 
swimming pool enclosures are likely required to have can tear away and 
damage the upper portions of the building exposing the building to 
greater damage. Improperly constructed enclosures can also result in 
flood forces being transferred to the foundation and to the elevated 
portion of the building with the potential for catastrophic collapse.
    The resulting increased damage to buildings with illegally built 
enclosures has implications for all policyholders. We will have to 
charger high flood insurance rates for buildings with enclosures to 
reflect the higher NFIP loss frequency and high damage potential. The 
increased flood risk and loss experience must be reflected in the 
premium that we charge to policyholders with ground level enclosures 
below the elevated floor.
    Over a period of many years, Myrtle Beach permitted approximately 
32 buildings with pool enclosures underneath elevated building. FEMA 
has spoken with several of our Regions and has verified that the 
practice of enclosing pools underneath elevated building is not a major 
issue anywhere but Myrtle Beach. Coastal communities understand and 
acknowledge their responsibility to enforce minimum NFIP standards and 
readily do so. The vast majority of communities have enforced the 
enclosure use limitation for many years. The Regions were aware of 
isolated instances where community's had inadvertently allowed pools to 
be enclosed in violation of the community's floodplain management 
regulations, but the problem was not systemic as in Myrtle Beach. When 
violations are discovered in other locations, FEMA requires the 
responsible community to remedy the violation just as we have in Myrtle 
Beach.
    FEMA has proposed the option of non-rigid wall barriers 
(commercially available heavy duty plastic) that would allow the 
building owners to climate control the pool area in the winter. The 
non-rigid wall option is allowed under the NFIP regulations and would 
afford building owners economical use the pools in the off-season.
    FEMA does not support any weakening of minimum NFIP floodplain 
management standards. Allowing enclosures around pools underneath 
elevated buildings would be inconsistent with the FEMA's flood hazard 
reduction goals. During flood events, these types of enclosures can 
result in increased structural loads to the elevated portion of the 
building resulting in increased damages. Further, these enclosures can 
increase post disaster debris and associated clean-up clean-up costs, 
and subject the buildings to higher flood insurance premiums due to 
increased risk to the building.
    In recognition of the fact that many of the violations in Myrtle 
Beach have been present for an extended period of time, FEMA and the 
NFIP State Coordinator have given the City of Myrtle Beach the 
following flexibility in meeting NFIP minimum requirements:
        <bullet> Myrtle Beach will be allowed until November 2010 to 
        bring the 32 structures into compliance with minimum NFIP 
        standards. This gives the community a full year for building 
        owners to implement NFIP compliant solutions.
        <bullet>FEMA will expect that the community to begin to remedy 
        the violations right away, with the goal of having all 32 
        buildings in compliance by November 1, 2010

 Questions from Mike Rogers, Ranking Member, Subcommittee on Emergency 
               Communications, Preparedness and Response

                  Responses from Hon. W. Graig Fugate

    Question 24.: Mr. Fugate, as former Director of the Florida 
Division of Emergency Management, you are no doubt familiar with the 
frustration that some States and localities experience during the 
disaster declaration process due to a lack of overall transparency. 
From your perspective, what more can the Federal government do at the 
regional office and headquarters levels to make the disaster 
declaration process more transparent for applicants? What steps can 
FEMA take to provide faster and more detailed communication with the 
States on disaster declaration request and appeal decisions?
    Response: FEMA headquarters and the Regional Offices share 
information on the status of their disaster requests with the states on 
a regular basis. However, certain confidentiality interests, including 
those associated with pre-decisional information must be maintained so 
as not to disrupt or inhibit the functions and decision making 
processes of the Executive Branch.
    That said, I will review the declaration process to determine if we 
are sharing all appropriate information with the States in a timely 
manner.

                                 <all>

</pre></body></html>
